<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT AND INDEPENDENT AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
 DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT AND 
        INDEPENDENT AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                        THURSDAY, MARCH 11, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Christopher S. Bond (chairman) 
presiding.
    Present: Senators Bond, Shelby, Stevens, and Mikulski.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF SEAN O'KEEFE, ADMINISTRATOR

            OPENING STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Good morning.
    This hearing of the Senate VA, HUD, and Independent 
Agencies Subcommittee will come to order.
    Today we welcome NASA Administrator, Sean O'Keefe who is 
with us today to testify on the President's fiscal year 2005 
budget for the National Aeronautics and Space Administration.
    Mr. Administrator, it has been quite a roller coaster ride 
since you joined NASA in December of 2001. We have gone from 
the tragedy of losing the Columbia, to the uncertainty and 
perseverance in its aftermath, to the renewed purpose instilled 
by the Columbia Accident Investigation Board (CAIB) report, and 
finally the excitement of a Presidential vision for the future 
that includes returning to the Moon and looking towards sending 
humans to Mars.
    This is an ambitious plan which could generate similar and 
even greater excitement to that which we are seeing with the 
current rovers, Spirit and Opportunity, that are working on 
Mars today.
    At the beginning of the year, it looked like NASA was on 
its way to a budget that would be relatively unchanged. That 
all changed on January 14 with the announcement by the 
President about a new vision for NASA which has since 
translated into a budget request for fiscal year 2005 of over 
$16 billion, an increase of nearly $900 million from fiscal 
year 2004. Unfortunately, this impressive increase raises more 
questions at this time in my mind than excitement.
    The Senate fiscal year 2005 Budget Resolution is being 
debated on the floor as we speak, and the budget numbers 
contemplated by the President's budget request and in the 
Senate Budget Resolution currently will mean unacceptable 
shortfalls for a number of key VA/HUD programs, including VA 
Medical Care and Section 8 Housing Assistance, as well as the 
EPA Clean Water State Revolving Fund.
    These shortfalls have to be addressed before we provide 
increases to new programs in other accounts. NASA better hope 
we get a good 302(b) allocation, above the funding included in 
the Budget Request. Now, I don't mean to do this to pick on 
NASA, this is the same message that you will be hearing as I 
welcome each of the agencies coming before us that administer 
VA/HUD programs.
    The funding for NASA's new Moon/Mars vision is troubling 
for a number of reasons. As a practical matter, the NASA budget 
for the fiscal year 2005 through the fiscal year 2009 time 
period for the Moon/Mars vision is $12.6 billion, of which only 
$1 billion is in new funds and $11.6 billion is from other NASA 
activities. Fortunately, many of these activities, such as the 
Space Launch Initiative, appear to be appropriate sacrifices 
for the Moon/Mars vision.
    However, as part of this redirection of funds, other 
programs and facilities projects are being deferred, the Hubble 
telescope is to be retired, and aeronautics spending will 
remain relatively flat over the next 5 years.
    I am sure my colleague from Maryland will have a few things 
to say about Hubble, but I know that world class science is 
being done, and can be done, for years to come with this famous 
telescope, and we should be sure that we are not giving up on 
it too soon.
    I also have joined my colleague in asking for a 
comprehensive review of the proposed Hubble decision before the 
implementation of a final decision is made. In the case of 
aeronautics, we made it clear in the fiscal year 2004 NASA 
appropriation that we in Congress expected a greater investment 
by NASA.
    It is not an earmark, it is a Congressional investment and 
Congressional priority. Instead, the fiscal year 2005 budget 
request proposes $919 million for aeronautics, a reduction of 
11 percent from fiscal year 2004. This is a big problem. Europe 
has declared that they are going to dominate the commercial 
market in the next decade, yet this technology driven 
manufacturing industry gets little support from the one agency 
that can help keep America competitive in this industry.
    Given the problems that we are having in the Nation, I 
don't think this is the time to be cutting back on that 
investment. It has been those who contended that the Moon/Mars 
vision is affordable, and at the outset, that could be the 
case. Yet I am concerned that this new vision will become the 
next space station, consuming resources as costs begin to rise.
    Let me assure you that I have had a little experience 
dealing with NASA and these costs will go up, and they will go 
up. Some components of this vision are already in place. Some 
of the plans for future research on Mars is already underway 
and can easily be incorporated into the vision, yet the plans 
for the human vehicle and heavy lift capabilities that will be 
needed are just now being placed on the drawing board.
    Please forgive me if I question if now is the time to begin 
the full implementation, or if it would be more prudent to wait 
a year and let NASA decide what is needed to accomplish the 
goals set out by the President.
    I know the Aldridge Commission was created to provide 
recommendations for the implementation of the Moon/Mars mission 
and that these recommendations are due in early June. This will 
be needed and valuable information, but it will, at best, 
scratch the surface of what we need to know and only begin to 
outline some of the challenges we face.
    I am especially troubled by the proposed phase-out of the 
Shuttle and the reduced attention to role of the International 
Space Station in NASA's mission. We have already spent some 
$33.5 billion on the ISS, and the redirection of space policy 
calls into question the value of this investment since the role 
for the ISS will be severely reduced under the new vision.
    In addition, the shuttle is targeted to be decommissioned 
by 2010, and the next U.S. manned space vehicle, the Crew 
Exploration Vehicle, is not scheduled for flight until 2014. 
You will have to go a long way to convince me that a 4-year gap 
in U.S. manned space flight is sound policy. More importantly, 
I am convinced that this time schedule is too optimistic, in 
which case the gap could grow significantly. This raises 
serious questions as to cost, shuttle recertification, and 
related shuttle safety issues, as well as obligations to our 
international partners.
    Let me turn now to our international partners. I am 
gratified that our partners in the international community have 
responded to the needs of the International Space Station since 
the Columbia tragedy. The international cooperation has been, 
and can continue to be, crucial to the success of the endeavors 
of the space station.
    Under the President's vision, we will be completely 
dependent on other vehicles, most likely Russian, for our human 
transport to space for at least 4 years starting in 2010. There 
is a hope that the cooperation we have enjoyed with our 
partners will continue as we prepare to negotiate the future 
plans for the space station.
    Count me as a skeptic. If we do not maintain a good 
relationship with our partners to the International Space 
Station, how can we expect the international community to join 
in future activities like the proposed missions to the Moon and 
Mars?
    Again, this raises serious questions as to how our 
obligations to our international partners have changed, how the 
costs will be borne and what it means for the use and 
maintenance of the International Space Station. What are they 
getting for what we're asking from them?
    In addition, if the shuttle cannot be certified for a 
return to flight until next year, what steps has NASA taken to 
ensure that the Soyuz meets the minimum safety requirements 
that are now expected for manned space flight since we are 
trusting our astronauts to these vehicles? Are we demanding the 
same safety standards that we would demand of the shuttle from 
the Soyuz? Has this been done? Has this been reviewed?
    I understand that there is inherent risk in all of the 
activities that NASA undertakes, and with that risk comes the 
possibility for failure or reward. Part of the difficulty 
involved is in choosing what should be done with limited 
resources. The problem is that the future budgets for this 
vision have many points where, if something does not work 
right, then there will be significant costs to keep us on the 
path that is being proposed.
    There are those who suggest that the private sector may 
step forward. Well, frankly, the experience of the private 
sector in trying to work with space has not been good. There 
have been problems. There have been failures. And I don't see 
an overwhelming cry in the commercial sector for people to step 
up and be able to participate in these adventures when past 
ones have turned out rather sour.
    Now, Mr. Administrator, since you took the helm of NASA, I 
have been impressed consistently with your efforts and 
commitment to making NASA a better agency. And any concern or 
criticism I have with regard to the NASA budget is intended as 
no reflection on the deep regard and the high confidence I have 
in your leadership. But what really bothers me is I am afraid 
you are being asked to do too much with too little, in not 
enough time. And then you have the bad luck of asking for more 
money for a new program in a time of severe budget constraints.
    Nevertheless, we commend your strong leadership and I look 
forward to working with you in the months to come. NASA is one 
of the most publicly-recognized agencies within the government. 
Everyone knows of something that is going on at NASA, be it 
stunning pictures of the universe, or the surface of a 
neighboring planet. This high visibility can be powerful in 
inspiring the future scientists and engineers of this country. 
We need new engineers and scientists. We need more young people 
in the United States choosing math, science and engineering 
curriculums, and I applaud your efforts in keeping NASA 
exciting and in attracting the young people of this Nation to 
these careers.
    I will have a number of questions on these issues and other 
concerns that I will either raise today or submit as questions 
for the record.
    Now, it is my pleasure to turn to my colleague, and close 
working partner, the Senator from Maryland, Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Senator Bond, and 
good morning, Mr. O'Keefe.
    The Committee welcomes you and I know we're going to have a 
very robust exchange today about a variety of issues.
    I so admire NASA because NASA is about discovery, 
exploration, science and technology. These are fundamental to 
who we are as a Nation. We are a nation of explorers and 
discoverers. Human space flight, scientific exploration has 
been the foundation of our space program for generations.
    My goal as the ranking member of this subcommittee is to 
maintain a balanced space program. That means striking a 
balance between safe and reliable space transportation, space 
science and human exploration. I want to congratulate NASA on 
some of its most recent successes. Certainly, we're all so 
pleased with the great job with the Mars rover and the great 
images we expect to see from your video.
    NASA has been able to confirm that water did exist on Mars 
and we've seen unprecedented photographs of the Martian 
surface, inspiring the Nation and a new generation of kids in 
science. I understand the since January 2, there has been more 
than 8 billion hits on the NASA website on this topic.
    And at the same time they have also had an enormous success 
once again with the Hubble telescope. Hubble is NASA's most 
successful program since Apollo, and in fact, many say that 
Hubble is the greatest scientific instrument since the Galileo 
telescope. Since 1993, Hubble has traveled over a billion 
miles, taken 330,000 photographs, 25,000 targets, and it 
accounted, I understand last year, for 40 percent of the NASA's 
discoveries.
    Over there is a picture from Hubble. When you look at it, 
it looks like a lot of colored dots, but it is a picture of the 
universe 13,000,000,000 years ago. It is also a picture of the 
universe with 10,000,000 galaxies, that have been discovered 
through Hubble. This is a phenomenal achievement.
    This extraordinary photograph was made possible thanks to 
the astronauts and to the space shuttle. We couldn't have 
Hubble without our astronauts and our space shuttle to make 
sure that it was launched, fitted with a contact lens, and 
service it on many occasions. Each time, though, Hubble has 
been serviced by the astronauts through the shuttle, it has 
increased Hubble's power by the factor of 10.
    There is proposed a fourth and final servicing mission 
which would extend the life of Hubble. Remember Hubble is not a 
piece of techno-junk that's creaky, tattered and worn. What it 
does need though, is like a lot of motors, new batteries and 
new gyroscopes. And if we put on it the new technology that is 
waiting to be installed, it would once again improve the factor 
of Hubble by 10. So extending the life isn't putting Hubble on 
a respirator, it is giving us a wider view of the origins of 
the universe.
    That's why when I received your call, Mr. Administrator, 
about the cancelling of the Hubble service mission, I was 
shocked and surprised. I know that you cited very clearly that 
you were concerned about the cost of Hubble servicing mission 
as well as possible danger to the astronauts.
    I want you to know that I absolutely agree with you that 
astronaut safety has to be our highest priority. It has to be 
our highest priority whether we service the Hubble or whether 
we complete the space station. We owe it to our astronauts and 
I believe that's the history of this panel. But at the same 
time the recommendation to cancel Hubble I viewed as surgery, 
irrevocable surgery. And I asked you if we could get a second 
opinion citing that any prudent person when they're facing 
major surgery that is irrevocable would seek the same.
    I want to thank you for your cooperation then to seek that 
opinion and that's why we turned then, at your request, to 
Admiral Gehman who chaired the Columbia Accident Investigation 
Board.
    Mr. Chairman, we now have the Gehman letter, and I ask 
unanimous consent that the Gehman letter be included in the 
record.
    Senator Bond. Without objection.
    Senator Mikulski. We have the letter here.
    Now, what Admiral Gehman says in the letter is no matter 
what, the use of the shuttle involves risk, whether we go to 
the station, whether we go to Hubble, whether we do both, that 
using the shuttle involves risk. He also says, that no matter 
what mission is undertaken by the astronauts on the shuttle 
there must be absolute compliance with the full implementation 
of the CAIB.
    This is, I think, a major policy and funding decision that 
I believe we're ready to commit to today, no matter what we've 
got to do, to make sure that the CAIB recommendations are fully 
implemented and fully funded, and I'll be asking you questions 
along those lines.
    At the same time, he then goes into commenting about 
Hubble. What Admiral Gehman says, is that complying with the 
CAIB return to flight, and I am quoting now, ``NASA has been 
challenged when factoring in the International Space Station. 
The CAIB allowed more latitude in complying with their 
recommendations for non-space station missions.
    He then goes on to say, that the Hubble servicing mission 
may be slightly, slightly more risky taking into account only 
the debris threat from the orbiter. He also called in his 
letter for additional study. What he says, then is fully 
implement, no matter what, the CAIB. Second, that risk is 
slightly more than other missions.
    Then he goes on to say, I suggest only a deep and rich 
study of the entire gain-risk equation can answer the question 
of whether an extension of the life of the Hubble. He says the 
life of the wonderful Hubble telescope is worth the risk. So 
essentially the Gehman report says slightly more risk and it 
needs more study.
    I really want to thank Admiral Gehman for what he's done 
both for the Columbia Accident Investigation Board, as well as 
for this. He is a man of great integrity.
    Now, I wholeheartedly concur with the Gehman 
recommendations. And when he talks about the additional need 
for more study, I reached out to my colleague, Senator Bond, 
and am asking you today to cooperate with us for asking the 
National Academy of Sciences to study the Hubble servicing 
mission. And also, we will be asking for a study from the 
General Accounting Office to look at the cost of the servicing 
mission.
    So we have got to be concerned about Hubble. We have got to 
be concerned about the astronauts, and we have to be concerned 
about the taxpayer, in order to make a prudent decision.
    The National Academy of Sciences, the most prestigious 
organization of its kind in the world. Its expertise in science 
and engineering make it uniquely qualified to study risks, 
mitigation factors, and scientific benefit.
    Let's make it clear I will stand up for the Hubble, but I 
will always place the priority of our astronauts first. At the 
same time, I want the best minds in science and engineering to 
tell us what are the risks. And at the same time, look at what 
it would cost to decommission the Hubble and not use the $167 
million worth of instruments.

                             GEHMAN LETTER

    There are a lot of questions to be asked here, and I look 
forward to engaging in a conversation with you about this, 
about the NASA priorities as well as the future of our space 
program. As well as the use of the station, that has been 
raised by my colleague, as well as the future of the Hubble.
    Thank you very much.
    [The information follows:]
                   Letter From Harold W. Gehman, Jr.
                                                     March 5, 2004.
The Honorable Barbara A. Mikulski,
Suite 709, Hart Senate Office Bldg., Washington, DC, 20510.
    Dear Senator Mikulski: In his January 28th letter to you regarding 
the cancelled servicing mission to the Hubble telescope, NASA 
Administrator Sean O'Keefe indicated he had asked me to provide to you 
my views ``. . . regarding safety and risk factors identified in the 
report of the Columbia Accident Investigation Board.'' from my 
perspective as Chairman of the Board. The purpose of this letter is to 
provide you my views on this matter.
    I am pleased to undertake this task because it is fully consistent 
with the goals of the Columbia Accident Investigation Board (CAIB). At 
the very front of our report, in the ``Board Statement'', we expressed 
our belief that:

    ``The loss of COLUMBIA and her crew represents a turning point, 
calling for a renewed public policy debate and commitment regarding 
human space exploration. One of our goals has been to set forth the 
terms for this debate.''

    Whether to fly another mission to the Hubble is one of the public 
policy debates this Nation should have, thus I am pleased to add 
whatever clarity I can to the terms of the debate.
    As you are aware, the CAIB no longer exists; therefore, these views 
are my own. They are, however, based on the extensive investigation 
into the Columbia accident. Members of the Board are aware of my 
efforts, and while the Board is split on the merits of flying this 
mission, the Board's characterization of the risks as noted in our 
report are fully agreed. This letter is based on our work and insights 
gained during the most of careful study of the manned space flight 
program ever conducted, as well as recent consultations with the 
Stafford-Covey Return to Flight Task Group and others.
How Risky Are Current Shuttle Flights?
    The introduction to Chapter Nine, Implications for the Future of 
Human Space Flight, is an excellent place to start:

    ``In this report we have documented numerous indications that 
NASA's safety performance has been lacking. But even correcting all 
those shortcomings, it should be understood, will not eliminate risk. 
All flight entails some measure of risk, and this has been the case 
since before the days of the Wright Brothers. Furthermore, the risk is 
not distributed evenly over the course of the flight. It is greater by 
far at the beginning and end than during the middle.
    ``This concentration of risk at the endpoints of flight is 
particularly true for crew-carrying space missions. The Shuttle Program 
has now suffered two accidents, one just over a minute after takeoff 
and the other about 16 minutes before landing. The laws of physics make 
it extraordinarily difficult to reach Earth orbit and return safely. 
Using existing technology, orbital flight is accomplished only by 
harnessing a chemical reaction that converts vast amounts of stored 
energy into speed. There is great risk in placing human beings atop a 
machine that stores and then burns millions of pounds of dangerous 
propellants. Equally risky is having humans then ride the machine back 
to Earth while it dissipates the orbital speed by converting the energy 
into heat, much like a meteor entering the Earth's atmosphere. No 
alternative to this pathway to space are available or even on the 
horizon, so we must set our sights on managing this risky process using 
the most advanced and versatile techniques at our disposal.
    ``Because of the dangers of ascent and re-entry, because of the 
hostility of the space environment, and because we are still relative 
newcomers to this realm, operation of the Shuttle and indeed all human 
spaceflight must be viewed as a developmental undertaking. Throughout 
the COLUMBIA accident investigation, the Board has commented on the 
widespread but erroneous perception of the Space Shuttle as somehow 
comparable to civil or military air transport. They are not comparable; 
the inherent risks of spaceflight are vastly higher, and our experience 
level with spaceflight is vastly lower. If Shuttle operations came to 
be viewed as routine, it was, at least in part, thanks to the skill and 
dedication of those involved in the program. They have made it look 
easy, though in fact it never was. The Board urges NASA leadership, the 
architects of the U.S. space policy, and the American people to adopt a 
realistic understanding of the risks and rewards of venturing into 
space.''

    In other words, for now and for the foreseeable future, by far most 
of the risk in space flight is in the launch, ascent, entry and landing 
phases, with a small portion of the total risk associated with the 
actual on-orbit mission. One could say that, within reasonable bounds, 
whatever one does once on orbit; it doesn't change the total risk 
factor very much. The conclusion from this observation, therefore, is 
to launch the fewest possible number of Shuttle missions. Indeed, the 
bottom line of the ``Future'' part of our Report is to replace the 
Shuttle as soon as possible, and to keep this risk equation in mind 
when developing the replacement system.
    It was one of the CAIB's goals to help national policy makers 
understand the risks of Shuttle flights by putting space flight as we 
presently conduct it into context. We as a Nation need to understand, 
as best we can, the amount of risk we accept while accomplishing our 
goals of space exploration. In Chapter Five, we quote the 1989 Office 
of Technology Assessment:

    ``Shuttle reliability is uncertain, but has been estimated to range 
between 97 and 99 percent. If the Shuttle reliability is 98 percent, 
there would be a 50-50 chance of losing an Orbiter with 34 flights . . 
. The probability of maintaining at least three Orbiters in the Shuttle 
fleet declines to less than 50 percent after flight 113.'' (STS-107, 
the ill-fated Columbia flight, was the 113th Shuttle mission).

    And we quote the 1990 Augustine Commission Report:

    ``And although it is a subject that meets with reluctance to open 
discussion, and has therefore too often been relegated to silence, the 
statistical evidence indicates that we are likely to lose another Space 
Shuttle in the next several years . . . probably before the planned 
Space Station is completely established on orbit.''

    To put these very accurate predictions into today's context, we 
should use figures we know are accurate. We have flown 111 out of 113 
Space Shuttle missions safely, for a 98.23 percent reliability rate. 
The chance that we will be able to fly 25 future missions using this 
reliability figure without a loss is 64 percent. The more missions we 
fly, the more that 64 percent number goes down. It is my opinion that 
implementing all the Return to Flight recommendations made by the CAIB 
raises the reliability number somewhat, although no one knows for sure 
what it is. A reliability number more like 99 percent seems reasonable 
to me, giving a 78 percent chance we will fly the 25 missions without 
loss. Once again, more missions cause that 78 percent number to go 
down. Flying one more mission, 26 in all, reduces the probability of 
series success by about 1 percentage point.
    The bottom line: Shuttle flights are dangerous and we should fly 
the minimum number necessary. Almost all the risk is concentrated in 
the front and back of the mission, where one goes on orbit makes little 
difference.
What Can Be Done To Mitigate the Risk?
    The recommendations contained in the Columbia Accident 
Investigation Report pertaining to return to flight are specifically 
designed to break the coupling or linkage between the propensity of the 
Shuttle external tank to shed ice and debris and the loss of crew and 
vehicle. To increase the chances of mission success and decrease the 
chances that future shedding events, which are inevitable in our view, 
will result in a catastrophic outcome, four measures are required. The 
Board feels all four are required; picking and choosing from among the 
four does not meet our intent.
    First, measures must be taken to more fully understand why foam 
shedding in particular occurs and what steps must be taken to reduce 
it. This recommendation requires research and development activity as 
well as some sub-element re-design steps. NASA is well along in 
implementing this recommendation.
    Second, measures must be taken to more fully understand the true 
strength of the parts of the Orbiter that are most likely to be 
damaged. The CAIB found, for example, no agreement, backed by test 
data, on the current strength of the Reinforced Carbon-Carbon wing 
leading edge components. This recommendation will allow NASA to 
understand the true nature of the risk to the Orbiter from debris 
shedding events.
    Third, measures must be taken to image the Orbiter both during 
launch and on-orbit to characterize any hits and to essentially ``re-
certify'' the Orbiter for entry. This recommendation includes much 
better launch complex camera systems, range imaging systems and an 
ability to thoroughly inspect the exterior TPS of the Orbiter in space 
prior to entry.
    Fourth, measures must be taken to develop and deploy a capability 
to make emergency, on-orbit repairs to the TPS to any damage that is 
deemed threatening to successful entry. This step cannot be 
accomplished unless steps two and three above are done.
    In the view of the Board, all four steps are required, and 
selecting from among them is not sufficient. While we studied and 
deliberated these Return to Flight recommendations, it became apparent 
to us that missions to the ISS had a significant advantage in 
implementing our recommendations over those that were not going to the 
ISS. Consequently we decided to differentiate RTF recommendations 
between missions to the ISS and non-ISS missions. Our report refers 
only to ISS missions or non-ISS missions. We did not specify what non-
ISS missions might be flown (Columbia's final mission was, of course, a 
non-ISS mission). In our view, missions to the ISS allowed a more 
complete and robust inspection and repair capability to be developed.
    However, knowing that there are situations where docking to the ISS 
may not occur, we required that ultimately NASA must develop an 
autonomous on orbit inspection and repair capability. Very frankly, we 
called for a less technically challenging inspection and repair 
capability, by stating:

    ``For non-Station missions, develop a comprehensive autonomous 
(independent of Station) inspection and repair capability to cover the 
widest possible range of damage scenarios''.

    In other words: ``Do the best you can''. We knew we were 
essentially REDUCING the requirements. Reducing the rigor of our 
requirements INCREASES the risk. It cannot be seen any other way. If 
fully complying with the CAIB RTF technical requirements decreases the 
risk, complying with lesser requirements must increase the risk. The 
risk difference is probably not knowable in advance, and knowing the 
technical capabilities involved the risk difference is probably small, 
but it is not zero.
    It is important to remember the CAIB is talking about risk to the 
Orbiter from debris shedding events. There are many other factors 
involved that influence the total risk equation, sometimes very 
significantly. One of the more significant factors is the heavy cargo 
loads that are frequently carried to the ISS at high inclinations, 
which creates risk factors of their own. We did not look at total 
mission risk and I am not prepared to analyze the total risk equation 
for all possible Shuttle missions. Further, the CAIB specifically used 
the generic term ``non-ISS'' missions to avoid any judgments regarding 
the relative value of one mission over another.
    Bottom line: Complying fully with the CAIB's RTF recommendations is 
less a challenge when factoring in the ISS. The CAIB allowed more 
latitude in complying with our recommendations for non-ISS missions, 
which may be slightly more risky, taking into account only the debris 
shedding threat to the Orbiter.
    Senator, in Chapter Nine of our Report, titled: ``Implications for 
the Future of Human Space Flight'', we made the declarative statement 
that: ``It is the view of the Board that the present Shuttle is not 
inherently unsafe''. We were under no pressure to conclude either way 
on this issue. But I always like to point out that there are two 
negatives in that quote. We are not saying the Shuttle is ``safe'', it 
certainly is not by any common understanding of the word ``safe''. Nor 
are we saying it is unsafe and should be abandoned. Our study and 
report are designed to help NASA manage the substantial risks involved. 
I suggest only a deep and rich study of the entire gain/risk equation 
can answer the question of whether an extension of the life of the 
wonderful Hubble telescope is worth the risks involved, and that is 
beyond the scope of this letter. What I have attempted to do is offer a 
very frank review of the risks to all Shuttle operations, Hubble or 
non-Hubble, as we understand them.
    I hope this letter is useful, and as always, I am prepared to 
answer any questions you or your committee may have.
            Very respectfully,
                                     Harold W. Gehman, Jr.,
                                               Admiral, USN (Ret.).

    Senator Bond. Thank you, Senator Mikulski.
    I appreciate your very thoughtful comments. I now turn to 
Senator Shelby, our colleague from Alabama.
    Senator Shelby. Mr. Chairman, first I would like to ask 
that my entire written statement be made part of the record.
    Senator Bond. Without objection.
    Senator Shelby. And I will be brief.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Mr. Chairman, I want to associate myself 
with your remarks. I thought you, as chairman of the committee, 
laid out a lot of our concerns, as well as did the former 
chairman and now ranking Senator Mikulski. A lot of our 
concerns and a lot of our questions.
    And I had the pleasure, yesterday, of meeting with Mr. 
O'Keefe. I, like you, hold him in high regard, but there are a 
lot of serious questions that we've got to probe here. We've 
got to figure out what we can do, and why we're abandoning--or 
should we abandon some things that are very important to the 
future. And I think that Senator Mikulski's idea about dealing 
with the National Academy of Sciences and getting their opinion 
on a lot of things is very sound.
    Other than that, Mr. Chairman, I am awaiting the remarks of 
Mr. O'Keefe.
    Thank you.
    Senator Bond. Thank you very much, Senator Shelby.
    Mr. Administrator, please go ahead.

                STATEMENT OF ADMINISTRATOR SEAN O'KEEFE

    Mr. O'Keefe. Thank you, Mr. Chairman, members of the 
Committee. It is a pleasure to be here and I thank you very 
much for the opportunity to return to very familiar grounds, 
having served on the Appropriations Committee staff in a prior 
life. I am always delighted to be back before this forum. If 
you permit me, sir, I will submit for the record my prepared 
statement and be very brief in my summary of it.
    Senator Bond. Without objection. We will be happy to have 
your comments.
    Mr. O'Keefe. Thank you, Mr. Chairman.
    First and foremost, I think the debate that was launched as 
the consequence of the CAIB report to establish a national 
vision, to have a focus and a set of objectives that would be 
articulated for the Nation's space policy, is an element that 
certainly after the CAIB report, was engaged in vigorously in 
all the appropriate oversight committees of Congress, as well 
as in broader fora within the space community. Those calls for 
a vision were answered.
    The President responded to that. On January 14, he 
established very firmly, through a long, extensive inter-agency 
process that involved many other agencies of the Federal 
Government in addition to NASA, a collaborative position, that 
he forwarded on that date, that very clearly articulated a new 
direction, a new focus, and a new strategy for our space 
exploration objectives.
    It is a destiny as explorers as opposed to about a 
destination. There is a very clear statement that he made that 
establishes that explorations are our primary focus and 
objective as opposed to trying to set individual destinations 
milestones. So when those calls for a vision were made, it was 
received and that's precisely what he ultimately stated.
    Interestingly, the National Academy of Sciences on a 
different matter entirely endorsed that particular approach in 
a study they just released here from the National Academy of 
Sciences and Engineering, through the National Research 
Council, where it very clearly articulates the proposal of a 
broader exploration and discovery agenda for the purpose of 
developing the technologies to achieve those tasks.
    In that regard, we're gratified to see the National Academy 
of Sciences' view that helps us move in the direction of 
implementing the strategy, I think in very constructive ways. 
In addition to what we will see from the Aldridge Commission, 
that as you mentioned, Mr. Chairman, will be convening and 
devising implementation strategies as well.
    Secondly, it is about the Earth. It is about the moon. It's 
about Mars. It's about beyond. It's one stepping stone at a 
time. A very specific strategy the President laid out that 
identifies the approaches on how we would achieve that by 
degrees and by increments, as opposed by destinations and by, 
you know, breakneck type of crash programs that have typified 
the approaches we have taken in the past. That's not what he 
articulated here.
    Indeed, the Mars successes you've referred to in your 
statements, are one of first steps in that direction, an 
advanced guard, if you will, that establishes those precursor 
missions necessary to inform subsequent missions that would 
follow.
    Thirdly, it is about, as he articulated, an impact to all 
of our lives here on Earth. For every dollar expended for NASA 
related activities, $7 are spun-off into the economy in a 
variety of different ways of technology developments that would 
not have occurred were it not for those approaches. They affect 
a broad range of things beyond the aerospace and aeronautics 
community, also a range of medical advances that certainly have 
benefitted as a result of those activities.
    To your point, I think raised by Senator Mikulski, people 
really care. Eight billion hits to the website in a span of no 
more than 2 months is a phenomenal testimony to the interest 
that folks have. It isn't just Mars. About 30 percent of those 
hits have been to the Mars-related kinds of websites. The other 
70 percent is the range of all other activities that we're 
engaged in. By comparison, all of last year, the websites 
received hits of 2.8 billion, all of last year. So, this has 
been a factor of 3-plus over the levels we have already seen, 
just in the span of 60 days. There is no question that the 
interest level is high. People care about what we're engaged 
in, and are excited and inspired by the notion of it.
    Finally, it is about, as has been traditionally a nature of 
the debate, not just about people, or human space flight, or 
about robotics, it is about both. It's a combination of both 
efforts. I think Senator Mikulski, you summarized that very 
well, in one of the stellar successes of how that capability 
between humans and robotic capabilities, as demonstrated by the 
Hubble Space Telescope, for example, over the years, some 
extraordinary achievements in that regard.
    It's a precursor or effort, if you will, of establishing 
how that can be done and set the precedent in so many ways of 
what the strategy that the President articulated. In this 
particular case, it would apply for each successive venture 
that we follow from here on.
    Let me just summarize and conclude by asking that the video 
be keyed-up at this point that articulates what that direction 
is. It's a short discussion, but it moves through the very 
specific objectives and agenda of what is involved in this 
strategy, in words that the President articulated and 
established on the 14 of January.
    If we could.
    Mr. Chairman, as the President summarized, it is a journey, 
not a race and we have designed the budget in order to assure 
that it is that way. The approach that we have taken to this as 
illustrated by this one graph, is based on long term 
affordability, not a balloon payment. Something that 
progressively builds on successes before we move ahead to the 
next stage.

                           PREPARED STATEMENT

    And again, I would ask your consent, sir, to insert for the 
record the National Academy of Sciences' study on these efforts 
and what these objectives should be, and we will certainly 
debate the question of how deliberately we are in the process 
of implementing it.
    I thank you, sir.
    Senator Bond. It will be accepted for the record, and I 
thank you very much.
    [The statement follows:]

            Prepared Statement of Administrator Sean O'Keefe

    Mr. Chairman and Members of the committee, thank you for this 
opportunity to appear today to discuss NASA's fiscal year 2005 budget 
request. On January 14th, the President visited NASA Headquarters and 
announced his Vision for U.S. Space Exploration. In his address, the 
President presented a vision that is bold and forward-thinking, yet 
practical and responsible--one that explores answers to longstanding 
questions of importance to science and society and develops 
revolutionary technologies and capabilities for the future, while 
maintaining conscientious stewardship of taxpayer dollars.
    The vision forms the basis of the new U.S. space exploration 
policy, ``A Renewed Spirit of Discovery,'' a copy of which is appended 
to this testimony as Enclosure 1. This policy is the product of months 
of extensive and careful deliberation. The importance of these 
deliberations increased with the findings of the Columbia Accident 
Investigation Board, which emphasized the importance of setting clear, 
long-term goals for the Nation's human space flight program. Inputs 
from Members of Congress informed the administration's deliberations. 
Many others contributed ideas for the future of the space program. 
These deliberations were also the basis for formulating the President's 
fiscal year 2005 budget request for NASA. A commission appointed by the 
President will advise NASA on specific issues for implementation of the 
policy's goals within 4 months.
    Today, I will summarize the President's fiscal year 2005 budget 
request for NASA, discuss the goals set forth in the new U.S. space 
exploration policy, outline the major implementation elements and their 
associated budget details, explain the implications of this directive 
for NASA's organization, and describe what the Nation's future in 
exploration and discovery will look like in the coming years.

                    FISCAL YEAR 2005 BUDGET SUMMARY

    The President's fiscal year 2005 budget request for NASA is $16.244 
billion, a 5.6 percent increase over fiscal year 2004, as reflected in 
Enclosure 2. The NASA budget request is designed with four key 
principles in mind:
    Compelling.--The budget fully supports the Vision for U.S. Space 
Exploration, and provides for ongoing NASA mission priorities such as 
Aeronautics and Earth Science.
    Affordable.--The budget is fiscally responsible and consistent with 
the administration's goal of cutting the Federal deficit in half within 
the next 5 years. NASA's fiscal year 2005 budget will increase by $1 
billion over 5 years, when compared with the President's fiscal year 
2004 plan; that is an increase of approximately 5 percent per year over 
each of the next 3 years and approximately 1 percent for each of the 
following 2 years.
    Achievable.--The budget strategy supporting the vision for 
sustainable exploration will not require large balloon payments by 
future Congresses and administrations. Unlike previous major civil 
space initiatives, this approach is intentionally flexible, with 
investments in sustainable exploration approaches to maintain 
affordability. After fiscal year 2009, the budget projects that the 
exploration vision can be implemented within a NASA budget that keeps 
pace with inflation.
    Focused.--The budget begins the alignment of NASA's program 
structure with the exploration vision. We now have the needed compass 
with which to evaluate our programs and make the required tough 
decisions.

                              VISION GOALS

    The fundamental goal of this new policy is to advance U.S. 
scientific, security, and economic interests through a robust space 
exploration program. In support of this goal, NASA will:
  --Implement a sustained and affordable human and robotic program to 
        explore the Solar System and beyond;
  --Extend human presence across the Solar System, starting with a 
        human return to the Moon by the year 2020, in preparation for 
        the human exploration of Mars and other destinations;
  --Develop the innovative technologies, knowledge, and infrastructures 
        both to explore and to support decisions about destinations for 
        future human exploration; and
  --Promote international and commercial participation in exploration 
        to further U.S. scientific, security, and economic interests.

             IMPLEMENTATION ELEMENTS AND BUDGET HIGHLIGHTS

    To achieve these goals, NASA will plan and implement an integrated, 
long-term robotic and human exploration program, structured with 
measurable milestones and executed on the basis of available resources, 
accumulated experience, and technology readiness. The policy envisions 
the following major implementation elements:
    Space Shuttle.--NASA will safely return the Space Shuttle to flight 
as soon as practical, based on the recommendations of the Columbia 
Accident Investigation Board. The budget includes $4.3 billion for the 
Space Shuttle, a 9 percent increase above fiscal year 2004. Included in 
this total is an estimated $238 million for Return to Flight (RTF) 
activities in fiscal year 2005. The RTF activities are under evaluation 
to confirm the estimated cost and associated out year phasing. The 
focus of the Space Shuttle will be finishing assembly of the 
International Space Station (ISS). With its job done, the Space Shuttle 
will be phased out when assembly of the ISS is complete, planned for 
the end of the decade. NASA will determine over the next year how best 
to address the issues associated with the safe retirement of the Space 
Shuttle fleet.
    International Space Station.--NASA plans to complete assembly of 
the International Space Station by the end of the decade, including 
those U.S. components that will ensure our capability to conduct 
research in support of the new U.S. space exploration goals, as well as 
those elements planned and provided by foreign partners. The budget 
provides $1.9 billion for ISS assembly and operations, a 24 percent 
increase above fiscal year 2004. This increase forward funds $100 
million in reserves to partially restore planned near-term reserve 
levels following the $200 million congressional cut to Space Station in 
fiscal year 2004 and provides $140 million in new funding for 
transportation services to the Space Station. We will separate, to the 
maximum extent practical, crew and cargo transportation for both ISS 
and exploration missions. NASA will acquire ISS crew transport as 
required and will acquire cargo transportation as soon as practical and 
affordable. NASA envisions that commercial and/or foreign capabilities 
will provide these services.
    The administration is also prepared to address issues associated 
with obtaining foreign transportation services to the Space Station, 
including provisions of the Iran Nonproliferation Act, but, until the 
ISS Partnership adopts a specific implementation strategy, it is 
premature to identify specific issues.
    U.S. research activities aboard the ISS will be focused to support 
the new exploration goals, with an emphasis on understanding how the 
space environment affects astronaut health and capabilities, and on 
developing appropriate countermeasures to mitigate health concerns. ISS 
will also be vital to developing and demonstrating improved life 
support systems and medical care. Consistent with this focus, the 
budget provides $343 million, a 61 percent increase above the fiscal 
year 2004 request, for bioastronautics research to understand and 
mitigate risks to humans on exploration missions. Over the next year, 
the Biological and Physical Research Enterprise will conduct a thorough 
review of all research activities to ensure that they are fully aligned 
with and supportive of the new exploration vision.
    New Space Transportation Capabilities.--The budget provides $428 
million to begin a new Crew Exploration Vehicle, named Project 
Constellation, which will provide crew transport for exploration 
missions beyond low-Earth orbit. The current budget planning is based 
on formulation concept studies to be conducted in fiscal year 2004, 
preliminary design activities conducted in fiscal year 2005-2006, a 
System Design Review in fiscal year 2005, and a Preliminary Design 
Review in fiscal year 2006. NASA plans to develop Project Constellation 
in a step-by-step approach, with an initial unpiloted test flight as 
early as 2008, followed by tests of progressively more capable designs 
that provide an operational human-rated capability no later than 2014. 
Project Constellation may also provide transportation to the Space 
Station, but its design will be driven by exploration requirements.
    NASA does not plan to pursue new Earth-to-orbit transportation 
capabilities, except where necessary to support unique exploration 
needs, such as those that could be met by a heavy lift vehicle. The 
budget discontinues the Space Launch Initiative, although knowledge 
gained on the Orbital Space Plane will be transferred to Project 
Constellation.
    Lunar Exploration.--NASA will undertake lunar exploration and 
demonstration activities to enable the sustained human and robotic 
exploration of Mars and other destinations in the Solar System. 
Beginning no later than 2008, NASA plans to launch the first in a 
series of robotic missions to the Moon to prepare for and support human 
exploration activities. The budget provides $70 million for these 
robotic lunar test beds, increasing to $420 million by fiscal year 
2009. The policy envisions the first human expedition to the lunar 
surface as early as 2015, but no later than 2020. These robotic and 
human missions will further science and demonstrate new approaches, 
technologies, and systems--including the use of space resources--to 
support sustained human exploration to Mars and other destinations.
    Exploration of Mars.--The stunning images we have received since 
January 2004 from Mars, and the recent findings by the Opportunity 
Rover of evidence of water on the Meridiani Planum, lay the foundation 
of the Vision for U.S. Space Exploration. NASA will enhance the ongoing 
search for water and evidence of life on Mars by pursuing technologies 
in this decade to be incorporated into advanced science missions to 
Mars in the next decade. Also starting in the next decade, NASA will 
launch a dedicated series of robotic missions to Mars that will 
demonstrate greatly enhanced capabilities and enable the future human 
exploration of the Red Planet. The budget provides $691 million for 
Mars Exploration, a 16 percent increase over fiscal year 2004, and will 
double Mars Exploration funding by fiscal year 2009. NASA will conduct 
human expeditions to Mars and other destinations beyond Earth orbit on 
the basis of available resources, accumulated experience, and 
technology readiness.
    Other Solar System Exploration.--Over the next two decades, NASA 
will conduct an increasingly capable campaign of robotic exploration 
across the Solar System. The budget provides $1.2 billion for Solar 
System Exploration missions to Jupiter's icy moons, to Saturn and its 
moon Titan, to asteroids and comets, and to other Solar System bodies. 
These missions will search for potentially habitable environments, 
evidence of life, and resources, and help us to understand the history 
of the Solar System.
    Extrasolar Planets.--NASA will launch advanced space telescopes 
that will search for Earth-like planets and habitable environments 
around other stars. The budget includes $1.1 billion for the 
Astronomical Search for Origins, a 19 percent increase over fiscal year 
2004, to support the recently launched Spitzer Space Telescope, James 
Webb Space Telescope development, as well as several future 
observatories. This funding also supports investments to extend the 
lifetime of the Hubble Space Telescope to the maximum extent possible 
without a Shuttle servicing mission and to safely deorbit the 
observatory when its science operations cease.
    Enabling Capabilities.--NASA will pursue a number of key 
capabilities to enable sustainable human and robotic exploration across 
the Solar System. Among the most important of these capabilities is 
advanced power and propulsion, and the budget provides $438 million for 
Project Prometheus to develop these technologies for future robotic and 
human exploration missions. The budget also includes $636 million in 
other Human and Robotic Technology funding to pursue sustainable 
approaches to Solar System exploration, such as reusable and modular 
systems, pre-positioned propellants, space resource utilization, 
automated systems and robotic networks, and in-space assembly. These 
technologies and techniques will be demonstrated on the ground, in 
orbit, and on the Moon beginning in this decade and extending into the 
next to help inform future exploration decisions. The budget projects 
that funding for these Human and Robotic Technology investments will 
grow to $1 billion by fiscal year 2009.
    The budget also includes innovative opportunities for U.S. 
industry, academia, and members of the public to help meet the 
technical challenges inherent in the new space exploration vision. The 
budget includes $20 million for the new Centennial Challenges program, 
which will establish competitions to stimulate innovation in space and 
aeronautical technologies that can advance the exploration vision and 
other NASA missions. The budget also provides $10 million for NASA to 
purchase launch services for its payloads from emerging launch vehicle 
providers. And as previously mentioned, the budget includes $140 
million for Space Station transportation services.
    Ongoing Priorities.--The budget supports the Vision for U.S. Space 
Exploration, while maintaining NASA commitments in other important 
roles and missions.
    NASA continues its commitment to understanding our changing global 
climate. The budget makes NASA the largest contributor to the 
interagency Climate Change Science Program with $100 million for the 
Climate Change Research Initiative. The budget includes $560 million 
for Earth System Science research, a 7 percent increase above fiscal 
year 2004, to support research on data from 80 sensors on 18 satellites 
currently in operation. Work also continues on Earth observation 
missions in development or formulation, including $141 million (a 36 
percent increase from fiscal year 2004) for the National Polar Orbiting 
Environmental Satellite System Preparatory Project, and $240 million (a 
37 percent increase from fiscal year 2004) for missions in formulation, 
such as the Orbiting Carbon Observatory, Aquarius, and Hydros, as well 
as the Landsat Data Continuity Mission.
    NASA maintains planned Aeronautics Technology investments to 
improve our Nation's air system. The budget includes: $188 million, a 4 
percent increase above fiscal year 2004, for technology to reduce 
aircraft accidents and improve the security of our Nation's aviation 
system against terrorist threats; $72 million, an 11 percent increase 
above fiscal year 2004, for technology to reduce aircraft noise and 
improve the quality of life for residents living near airports; $209 
million for technology to reduce aircraft emissions and improve 
environmental quality; and $154 million for technologies to increase 
air system capacity and reduce delays at the Nation's airports.
    NASA will continue to make fundamental advances in our knowledge of 
the Sun and the Universe. The budget provides $746 million for Sun-
Earth Connection missions, including the Solar Dynamics Observatory and 
the Solar-Terrestrial Relations Observatory. The budget also provides 
$378 million for Structure and Evolution of the Universe missions, 
including the Chandra X-ray Observatory and three major missions 
currently under development.
    NASA maintains its role in science, engineering and math education. 
The budget includes $10 million for the newly authorized Science and 
Technology Scholarship program, which will help attract the Nation's 
best college students to NASA science and engineering careers. The 
budget also provides $14 million for the NASA Explorer Schools program, 
which seeks to attract students to mathematics and science during the 
critical middle school years. The Explorer Schools program is entering 
its third phase and will be selecting 50 new schools for a total of 150 
participating schools.
    NASA's education programs are, and will continue to be imbedded and 
directly linked to our vision for space exploration. Students now have 
unprecedented opportunities to engage in NASA flight programs, the 
observation of distant galaxies, and the robotic exploration of distant 
planets. Mission experiences link students and classrooms to NASA's 
diverse personnel, research facilities, telescopes, and planetary 
probes. Our successful efforts to ``inspire the next generation of 
explorers'' sustain a continuous pipeline of scientists, technologists, 
engineers, mathematicians, and teachers to carry forward our Nation's 
exploration goals.
    Management of Human Capital, Facilities and Institution.--NASA has 
the distinction of being the only Federal agency to earn top grades for 
the Human Capital and Budget and Performance Integration initiatives 
under the President's Management Agenda. Congress recently passed the 
NASA Flexibility Act of 2004. NASA is grateful for the hard work of 
this committee in shaping this legislation to provide the necessary 
flexibilities to better manage the NASA workforce. These flexibilities 
will be critical to implementing the exploration vision. The budget 
includes $25 million in fiscal year 2005 to begin to address critical 
workforce skill and aging issues. NASA ratings have also improved in 
the Competitive Sourcing and E-Government initiatives, resulting in 
more total improvements than in any other agency. Although we received 
a disclaimed opinion on our recent audit statement, we are determined 
to pursue the right path in Financial Management bringing on a new 
financial system that will standardize accounting across the Agency and 
provide the tools necessary for improved program management. NASA 
remains committed to management excellence and believes it is essential 
to implementing the new exploration vision.
    The budget includes funding for critical institutional 
capabilities, including $77 million for the NASA Engineering Safety 
Center and $27 million for our software Independent Verification and 
Validation facility. The budget also provides $307 million, a $41 
million increase versus fiscal year 2004, for facilities maintenance.

                       ORGANIZING FOR EXPLORATION

    To successfully execute the exploration vision, NASA will re-focus 
its organization, create new offices, align ongoing programs, 
experiment with new ways of doing business, and tap the great 
innovative and creative talents of our Nation.
    The President has issued an Executive Order establishing a 
commission of private and public sector experts to advise us on these 
issues. Pete Aldridge former Undersecretary of Defense and Secretary of 
the Air Force, is Chair of the Commission. The President has named 
eight other commissioners to join Mr. Aldridge. The commission will 
issue its report within 4 months of its first meeting, which was held 
on February 11, 2004.
    Immediately following the President's speech, we established an 
Exploration Systems Enterprise, which will have the responsibility for 
developing the Crew Exploration Vehicle and other exploration systems 
and technologies. Retired U.S. Navy Rear Admiral Craig Steidle, former 
manager of the Defense Department's Joint Strike Fighter Program, is 
heading this new organization. Relevant programs of the Aerospace 
Technology, Space Science, and Space Flight enterprises are being 
transferred to the Exploration Systems Enterprise. The Aerospace 
Technology Enterprise has been renamed the Aeronautics Enterprise to 
reflect its new focus.
    As human explorers prepare to join their robotic counterparts, 
coordination and integration among NASA's diverse efforts will 
increase. The Exploration Systems Enterprise will work closely with the 
Space Science Enterprise to use the Moon to demonstrate new approaches, 
technologies, and systems to support sustained human exploration. 
NASA's Space Science Enterprise will have the responsibility for 
implementing early robotic testbeds on the Moon and Mars, and will also 
demonstrate other key exploration technologies--such as advanced power 
and communications--in missions to Mars and Jupiter's moons. NASA's 
Space Science Enterprise will eventually integrate human capabilities 
into exploration planning for Mars and other destinations.
    Many other elements of the NASA organization will be focused to 
support this new direction. NASA's Biological and Physical Research 
Enterprise will put much greater emphasis on bioastronautics research 
to enable the human exploration of other worlds. NASA's Office of the 
Space Architect will be responsible for integrating the exploration 
activities of NASA's different Enterprises and for maintaining 
exploration roadmaps and coordinating high-level requirements.
    As we move outward into the Solar System, NASA will look for 
innovative ideas from the private sector and academia to support 
activities in Earth orbit and future exploration activities beyond. 
Many of the technical challenges that NASA will face in the coming 
years will require innovative solutions. In addition to tapping 
creative thinking within the NASA organization, we will leverage the 
ideas and expertise resident in the Nation's universities and industry.
    In his speech, the President directed NASA to invite other nations 
to share in the challenges and opportunities of this new era of 
exploration and discovery, and he directed us to fulfill our standing 
international commitments on ISS. We are discussing the impact of our 
vision implementation plans on the ISS with our partners, and as I have 
already indicated, we will complete the assembly of the ISS. The 
President called our future course of exploration ``a journey, not a 
race,'' and other nations have reacted positively to the Vision; 
several have already contacted us about joining in this journey. 
Building on NASA's long history and extensive and close ties with the 
space and research agencies of other nations, we will actively seek 
international partners in executing future exploration activities 
``that support U.S. goals'' or ``wherever appropriate''.
    NASA will also invigorate its workforce, focus its facilities, and 
revitalize its field centers. As exploration activities get underway, 
NASA anticipates planning, reviews, and changes to align and improve 
its infrastructure. In order to achieve the exploration vision, we will 
be making decisions on how to best implement new programs. While some 
of these necessary actions will be difficult, they are essential to 
achieving the goals of the overall effort before us. I urge you to 
consider the full context of what we will be proposing rather than any 
isolated, specific action. Such a perspective will allow us to move 
forward in implementing the vision.

                    FISCAL YEAR 2003 ACCOMPLISHMENTS

    Much of the NASA's future ability to achieve the new space 
exploration vision is predicated on NASA's many previous 
accomplishments. The most visible NASA successes over the past year are 
the Spirit and Opportunity rovers currently on Mars. Already, the 
landscapes imaged by these twin rovers and their initial science 
returns are hinting at fundamental advances in our understanding of 
early environmental conditions on Mars; last week's announcement 
regarding the discovery of evidence that there was once liquid water on 
Mars' surface is a dramatic example of such an advance.
    However, Spirit and Opportunity are not the only recent NASA 
mission successes. NASA and its partners successfully launched seven 
new Space Science missions (including the two Mars rovers), three new 
Earth Science missions, one new NASA communications relay satellite, 
and completed two Space Station deployment missions. Operating missions 
have achieved a number of notable successes, including the Stardust 
mission's successful flight through the tail of Comet Wild-2, initial 
images from the recently launched Spitzer Space Telescope, a 10- to 
100-fold improvement in Earth's gravity map from the GRACE satellite, 
the most accurate maps of Earth temperatures to date from the Aqua 
satellite, and new insights into space weather and solar activity from 
Sun-Earth Connection missions.
    NASA exceeded or met 83 percent of its annual performance goals for 
fiscal year 2003. Among these accomplishments were demonstrations of 
new systems to improve air traffic control and to combat aircraft 
icing, improvements in battery, telescope sensor, and life support 
technologies; fundamental advances in understanding states of matter 
(from Space Station research); and the implementation of new remote 
sensing tools for tracking diseases and wild fires.

            THE NATION'S FUTURE IN EXPLORATION AND DISCOVERY

    As the President stated in his speech, we are embarking on a 
journey, not a race. We begin this journey of exploration and discovery 
knowing that many years of hard work and sustained effort will be 
required, yet we can look forward to achieving concrete results in the 
near term. The vision makes the needed decisions to secure long-term 
U.S. space leadership. It provides an exciting set of major milestones 
with human and robotic missions. It pursues compelling science and 
cutting-edge technologies. It invites new ideas and innovations for 
accomplishing these bold, new endeavors. And it will provide the 
opportunity for new generations of Americans to explore, innovate, 
discover, and enrich our Nation in ways unimaginable today. This 
challenging Vision provides unique opportunities for engaging students 
across the country, ``as only NASA can,'' to enter careers in science, 
engineering, technology, and math.
    I sincerely appreciate the forum that the subcommittee has provided 
today, and I look forward to responding to your questions.
                                 ______
                                 
                              Enclosure 1
                     A Renewed Spirit of Discovery

THE PRESIDENT'S VISION FOR U.S. SPACE EXPLORATION--PRESIDENT GEORGE W. 
                          BUSH, JANUARY, 2004

Background
    From the Apollo landings on the Moon, to robotic surveys of the Sun 
and the planets, to the compelling images captured by advanced space 
telescopes, U.S. achievements in space have revolutionized humanity's 
view of the universe and have inspired Americans and people around the 
world. These achievements also have led to the development of 
technologies that have widespread applications to address problems on 
Earth. As the world enters the second century of powered flight, it is 
time to articulate a new vision that will define and guide U.S. space 
exploration activities for the next several decades.
    Today, humanity has the potential to seek answers to the most 
fundamental questions posed about the existence of life beyond Earth. 
Telescopes have found planets around other stars. Robotic probes have 
identified potential resources on the Moon, and evidence of water--a 
key ingredient for life--has been found on Mars and the moons of 
Jupiter.
    Direct human experience in space has fundamentally altered our 
perspective of humanity and our place in the universe. Humans have the 
ability to respond to the unexpected developments inherent in space 
travel and possess unique skills that enhance discoveries. Just as 
Mercury, Gemini, and Apollo challenged a generation of Americans, a 
renewed U.S. space exploration program with a significant human 
component can inspire us--and our youth--to greater achievements on 
Earth and in space.
    The loss of Space Shuttles Challenger and Columbia and their crews 
are a stark reminder of the inherent risks of space flight and the 
severity of the challenges posed by space exploration. In preparation 
for future human exploration, we must advance our ability to live and 
work safely in space and, at the same time, develop the technologies to 
extend humanity's reach to the Moon, Mars, and beyond. The new 
technologies required for further space exploration also will improve 
the Nation's other space activities and may provide applications that 
could be used to address problems on Earth.
    Like the explorers of the past and the pioneers of flight in the 
last century, we cannot today identify all that we will gain from space 
exploration; we are confident, nonetheless, that the eventual return 
will be great. Like their efforts, the success of future U.S. space 
exploration will unfold over generations.

Goal and Objectives
    The fundamental goal of this vision is to advance U.S. scientific, 
security, and economic interests through a robust space exploration 
program. In support of this goal, the United States will:
  --Implement a sustained and affordable human and robotic program to 
        explore the solar system and beyond;
  --Extend human presence across the solar system, starting with a 
        human return to the Moon by the year 2020, in preparation for 
        human exploration of Mars and other destinations;
  --Develop the innovative technologies, knowledge, and infrastructures 
        both to explore and to support decisions about the destinations 
        for human exploration; and
  --Promote international and commercial participation in exploration 
        to further U.S. scientific, security, and economic interests.

Bringing the Vision to Reality
    The Administrator of the National Aeronautics and Space 
Administration will be responsible for the plans, programs, and 
activities required to implement this vision, in coordination with 
other agencies, as deemed appropriate. The Administrator will plan and 
implement an integrated, long-term robotic and human exploration 
program structured with measurable milestones and executed on the basis 
of available resources, accumulated experience, and technology 
readiness.
    To implement this vision, the Administrator will conduct the 
following activities and take other actions as required:

            Exploration Activities in Low Earth Orbit
            Space Shuttle
  --Return the Space Shuttle to flight as soon as practical, based on 
        the recommendations of the Columbia Accident Investigation 
        Board;
  --Focus use of the Space Shuttle to complete assembly of the 
        International Space Station; and
  --Retire the Space Shuttle as soon as assembly of the International 
        Space Station is completed, planned for the end of this decade;
            International Space Station
  --Complete assembly of the International Space Station, including the 
        U.S. components that support U.S. space exploration goals and 
        those provided by foreign partners, planned for the end of this 
        decade;
  --Focus U.S. research and use of the International Space Station on 
        supporting space exploration goals, with emphasis on 
        understanding how the space environment affects astronaut 
        health and capabilities and developing countermeasures; and
  --Conduct International Space Station activities in a manner 
        consistent with U.S. obligations contained in the agreements 
        between the United States and other partners in the 
        International Space Station.

            Space Exploration Beyond Low Earth Orbit
            The Moon
  --Undertake lunar exploration activities to enable sustained human 
        and robotic exploration of Mars and more distant destinations 
        in the solar system;
  --Starting no later than 2008, initiate a series of robotic missions 
        to the Moon to prepare for and support future human exploration 
        activities;
  --Conduct the first extended human expedition to the lunar surface as 
        early as 2015, but no later than the year 2020; and
  --Use lunar exploration activities to further science, and to develop 
        and test new approaches, technologies, and systems, including 
        use of lunar and other space resources, to support sustained 
        human space exploration to Mars and other destinations.
            Mars and Other Destinations
  --Conduct robotic exploration of Mars to search for evidence of life, 
        to understand the history of the solar system, and to prepare 
        for future human exploration;
  --Conduct robotic exploration across the solar system for scientific 
        purposes and to support human exploration. In particular, 
        explore Jupiter's moons, asteroids and other bodies to search 
        for evidence of life, to understand the history of the solar 
        system, and to search for resources;
  --Conduct advanced telescope searches for Earth-like planets and 
        habitable environments around other stars;
  --Develop and demonstrate power generation, propulsion, life support, 
        and other key capabilities required to support more distant, 
        more capable, and/or longer duration human and robotic 
        exploration of Mars and other destinations; and
  --Conduct human expeditions to Mars after acquiring adequate 
        knowledge about the planet using robotic missions and after 
        successfully demonstrating sustained human exploration missions 
        to the Moon.
            Space Transportation Capabilities Supporting Exploration
  --Develop a new crew exploration vehicle to provide crew 
        transportation for missions beyond low Earth orbit;
    --Conduct the initial test flight before the end of this decade in 
            order to provide an operational capability to support human 
            exploration missions no later than 2014;
  --Separate to the maximum practical extent crew from cargo 
        transportation to the International Space Station and for 
        launching exploration missions beyond low Earth orbit;
    --Acquire cargo transportation as soon as practical and affordable 
            to support missions to and from the International Space 
            Station; and
    --Acquire crew transportation to and from the International Space 
            Station, as required, after the Space Shuttle is retired 
            from service.
            International and Commercial Participation
  --Pursue opportunities for international participation to support 
        U.S. space exploration goals; and
  --Pursue commercial opportunities for providing transportation and 
        other services supporting the International Space Station and 
        exploration missions beyond low Earth orbit.
                                 ______
                                 
                              Enclosure 2

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Clerk's Note.--The additional information referred to has 
been retained in Committee files.]
    Senator Bond. We've been joined by the chairman of the full 
committee. Mr. Chairman, would you have any comments?

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. I welcome the Administrator, and I 
congratulate him on the success of his mission so far, and look 
forward to working with him in the years to come.
    Mr. O'Keefe. Thank you, sir.
    Senator Stevens. I think we ought to each put in a little 
reservation for some space on that trip in 2015.
    Mr. O'Keefe. Thank you, Mr. Chairman, it's a pleasure to 
see you.
    Senator Bond. Mr. Chairman, I would be happy to defer to 
you. You can have my slot.
    Senator Stevens. Well they sent something up. I think it 
was 80 years of age, and I think I will put in for my 
reservation when I'm 90 years of age.

                           SHUTTLE RETIREMENT

    Senator Bond. If you want to go, we will work it out.
    Mr. Administrator, at this time, the shuttle is the only 
U.S. vehicle capable of taking astronauts to and from space. 
Under the new vision for NASA, the shuttle would be retired and 
the space station constructed and completed in 2010. That's 
optimistic.
    A new Crew Exploration Vehicle (CEV) would be developed and 
fully operational for orbital missions by 2014. What will be 
the consequences of a 4-year and possibly longer hiatus, in 
U.S. flown human space flights. And how many staff will we lose 
and how will we restart the manned-space flight program after a 
4-year hiatus?
    Mr. O'Keefe. That's a fair point and one that really 
devoted an awful lot of attention during this inter-agency 
process towards that kind of gap period. Because as you recall, 
in our efforts to develop the Orbital Space Plane (OSP), last 
year, of which the Crew Exploration Vehicle, Project 
Constellation, is a natural evolution and derivative of that. 
And builds on everything we did on the Orbital Space Plane 
program.
    The earliest we could attain a full-up, human-rated system 
based on all the trade studies in the industry assessment, was 
by the 2010 time frame. So the approach that we've taken here 
with the Crew Exploration Vehicle and Project Constellation, as 
articulated in the Vision for Space Exploration, is to use the 
spiral development approach to demonstrate the capability as 
early as 2008, on the first spiral that needs to be done.
    So you would build each of the respective components and 
parts and launch as necessary, and as ready, to demonstrate 
that capability. That will give us time to assess this question 
of what kind of a gap might actually exist. It could occur, if 
it were successful, that we could move this much earlier. The 
catch is we're not building this on a success-driven strategy 
that inserts schedule pressure in that process and makes it a 
demand, so that you can't retire before the time.

                       CREW TRANSFER REQUIREMENTS

    Senator Bond. What are we going to have to pay Russia for 
taking U.S. astronauts to and from the ISS? And how is NASA 
going to pay for such services given the Iran Non-Proliferation 
Act prohibiting NASA from paying Russia for ISS related 
activities.
    Mr. O'Keefe. Well, sir----
    Senator Bond. What are they getting for it?
    Mr. O'Keefe. Sir, so far it's part of their agreement and 
so we have paid not a dime more for their efforts in the last 
year to fully complement the crew transfer requirements to the 
International Space Station, to and from, given the grounding 
of the shuttle since February 1, 2003, in the wake of the 
Columbia tragedy.
    They have fulfilled the commitment. That is due to expire 
in 2006. We're in the works of negotiating with them what 
additional challenges, among all of us as partners, of what 
those additional costs will be in expanding the number of crew 
expedition missions. Because now, at this point, we can expand 
the crew size beyond three once we reach U.S. core complete 
configuration in a year, or so, after we return to flight.
    From there, debating exactly what number of flights would 
be necessary from Soyuz vehicles, or after return to flight how 
many crew transfer requirements would be taken on the shuttle 
as part of our ongoing negotiations. So, in the course of that, 
I wouldn't want to predict right now what that may import. But 
so far it has cost nothing extra and nothing different. I 
associate myself entirely with your remarks, sir, that the 
partners have stepped up in this past year and demonstrated the 
real depth of this partnership by following through on their 
commitments and it hasn't taken any additional costs on the 
part of the United States in order to sustain the International 
Space Station capabilities thus far.

                           SOYUZ CAPABILITIES

    Senator Bond. Would the Soyuz meet the test that the Gehman 
Committee applied to the shuttle?
    Mr. O'Keefe. Yes, sir.
    Senator Bond. Has there been a similar examination of the 
safety of the Soyuz?
    Mr. O'Keefe. Yes, sir.
    Senator Bond. To make sure that we're sending them up on a 
safe vehicle?
    Mr. O'Keefe. The approach that we have used now 
consistently, and have really intensified, certainly in this 
period, that is the only means of transfer to and from the 
station, and return capability in the event of an emergency is 
by Soyuz, is to commission at every single flight a joint 
Russian-U.S. team of folks that were used.
    As a matter of fact, during the shuttle/Mir days, which was 
represented by Professor Amfimov, from the Russian 
Rosaviakosmos and Tom Stafford, an Apollo astronaut, with a 
team of folks who certify each and every flight as a prior 
flight readiness review effort, roughly a month before each of 
the expedition's crews depart.
    They come up with a comprehensive assessment of the safety 
standards that comport with that. We have insisted and the 
Russians have been extremely cooperative on this, of 
understanding the same parameters of medical, as well as 
technology standards that we adhere to, and they have been 
extremely helpful in working through that. So we have adjusted 
crews, we have made changes, and we have done all kinds of 
things as a consequence of the Stafford-Amfimov certification 
that occurs each and every flight. They will be meeting again 
here in about 3 weeks' time in preparation of the Expedition 9 
crew which is due to launch in the middle of April.
    Senator Bond. Senator Mikulski.

                        HUBBLE SERVICING MISSION

    Senator Mikulski. Thank you very much, Mr. Chairman.
    And I know my colleagues are here and so I will get right 
to my Hubble questions.
    Mr. O'Keefe, you have now received the Gehman letter 
containing his analysis of the Hubble servicing mission. Could 
you tell me your reaction to the Gehman letter, particularly 
the aspect where he recommends that we get additional advice. 
And our request to you that we go to the National Academy of 
Sciences for a more amplified analysis.
    Mr. O'Keefe. Thank you, Senator. Indeed, I associate myself 
entirely with your comments that Admiral Gehman issued a 
typical characteristically thoughtful commentary and review, 
and did in fact follow through on what I had suggested to you 
in our previous conversations, was for him to offer his unique 
view and perspective on this particular question. I think he 
offered that in addition to your comments, in a way, in which 
he said, by the changes in the non-station missions. We knew 
we're essentially reducing the requirements. Reducing the rigor 
of our requirements increases the risk and can't be seen any 
other way.
    That's in large measure looking at the Return to Flight 
challenges that we have been examining to comply with every one 
of those recommendations. Again, I am delighted to hear that 
your view, and I believe that of Congress, has been to say, 
yes, we are embracing the actions of the Columbia Accident 
Investigation Board's recommendations. It is our intent to 
implement them for each and every flight to assure that we do 
this to mitigate the risk to as low as we possibly can.
    Any further examination beyond that I think is welcomed. 
And to be sure, to the extent that on the Hubble servicing 
mission, and all of the alternatives that we have now, I think 
are excited by a Request for Information we issued in the early 
part of February, to ask what other approaches would we use to 
extend the battery life? What would we do to de-orbit in the 
early part of the next decade? What would we do to boost the 
capability, if need be?
    All of those factors, if we could include that in the 
equation--to look at what is, I believe, the broader objectives 
of what we all agree to, which is to get the maximum service 
life out of Hubble that we can--would be an acceptable approach 
to it.
    So asking the National Research Council through the 
National Academy of Sciences to examine that broader question 
of the range of alternatives and approaches that we use in 
order to maximize the service life of Hubble is something I 
have already engaged in discussions with Len Fisk, who runs the 
National Research Council, to determine their interest. They're 
very interested in pursuing that. As I understand you've done 
the same.
    We would welcome any ideas in terms of the broader scope of 
it in order to extend beyond the service life that we had 
anticipated of 2005. We're already going to exceed that. Let's 
figure out how we can do even better than that, short of 
encountering the risks that would be involved in a servicing 
mission.
    That ought to be included as well, and that's why the 
determination and judgment that I reached is that this is a 
higher risk. But if they look at the full plan and range of 
options, that's an approach that I think could be extremely 
beneficial for us all.

                          SERVICE MISSION RISK

    Senator Mikulski. First of all, that's a very constructive 
response, and I am going to thank you.
    Let's be sure that we understand the response. Number one, 
what Gehman recommended was a look at risk versus value. In 
other words, look at the value. Now what we asked for in the 
Mikulski-Bond, or Bond-Mikulski letter is for the National 
Academy of Sciences to look at the risk involved in a service 
mission, and what could make it as safe as possible, et cetera.
    What we want is, No. 1, implement what Gehman said he 
wanted studied. What you're saying, in addition to what Gehman 
wanted studied, and what I want studied on should we have a 
servicing mission, you're also wanting the National Academy to 
look at what else would be needed to extend the life of the 
Hubble. Is that correct?
    Mr. O'Keefe. Absolutely, Senator. I think that--oh, I'm 
sorry, please go ahead.
    Senator Mikulski. And then the third could be alternative 
methods for servicing. You know, there's a save the Hubble 
website. There's ideas coming in from all over the world. I am 
not asking the National Academy of Sciences to look at all of 
them. These ideas are what space scientists are all about, it 
is wild and creative. I wonder if you would also want them to 
look at alternative servicing methods, or----
    Mr. O'Keefe. Exactly. I think that's the approach. Let's 
go, and again, in the spirit of your comment, let's be sure 
that we're in full agreement on what the objectives would be 
here. The first one is, if we could fully agree that the 
objective is to comply with every recommendation of the CAIB 
for every shuttle flight, that's what NASA has embraced and 
that's what we intend to do.
    Senator Mikulski. And we're on the same broadband on that.
    Mr. O'Keefe. Yes, and I am very grateful to you, Senator, 
because that's the part that really worries me most.
    Senator Mikulski. So no matter what, because in the Gehman 
letter, he says this, the bottom line, says Admiral Gehman, 
shuttle risks are dangerous, and we should fly the minimum 
number necessary to complete mission. Almost all of the risk is 
concentrated in the front and the back of the mission. Where 
one goes into orbit makes little difference. That's one item.
    But in his final paragraph, he says, I suggest only a deep 
and rich study of the entire gain-risk equation can answer the 
questions of whether an extension of the life of the wonderful 
Hubble telescope is worth the risk. That's what I would like 
the National Academy of Sciences to look at.
    Your proposal, in addition to that, not in lieu of, would 
be to look also at should we not have a servicing mission, then 
how could we extend the life of the Hubble in its continued 
ability to discover while we're waiting. And I am now also 
wondering about your reaction to assessing alternative 
servicing methods as well.
    Mr. O'Keefe. No, as you suggested----
    Senator Mikulski. Is that----
    Mr. O'Keefe. Yes, ma'am. As you suggested, the approach we 
used in our Request for Information because of this flood of 
interest in various ways of looking at the challenge of moving 
the Hubble closer to the station, there are a number of 
different ideas that are potentially very interesting, and 
could be workable. And then there are others that are really 
kind of interesting.
    As a consequence, the approach that we took to separate the 
wheat from the chaff, I think is really critical. The two 
things that I think would really guide this approach is first 
and foremost, and inviolate, proposition that we have to comply 
with every recommendation of the CAIB report.
    So, independent of the return question, what I cannot abide 
the notion of, and what my judgment has been driven on, is the 
idea of commissioning a servicing mission that isn't in comport 
with every one of those requirements. That's the part that I 
want to be sure of that they're extremely focused on. 
Therefore, they'll have to delve into the full range of Return 
to Flight challenges, everything that we're doing in order to 
comply with every single recommendation. Because anything that 
says, it close but it's not close enough, is in my judgment not 
acceptable as a means to do this.
    The second matter would be, I think that we're all in 
agreement on, what can we do to extend the service life. And 
the ways that we can do that, beyond servicing, is to draw 
battery power at a much different rate, which therefore changes 
the operational protocols of how we utilize Hubble.

                     FINAL SERVICING MISSION STUDY

    Senator Mikulski. Mr. Administrator, the red light is 
blinking. We're going to wait for your opinions and also the 
Academy on this.
    While I would suggest that our staffs meet and make sure 
that we're all clear in the direction we're going in. And I 
believe we are.
    The last paragraph, though, to this which says, we request 
that you take no action to stop, suspend, or terminate any 
contracts or employment in connection with the final servicing 
mission until this study is completed.
    Mr. O'Keefe. Let me offer to you this proposition which 
is--I don't know what the answer to that one is. Having just 
received your letter this morning, I don't know what the result 
would be of each of those contracts.
    It falls into at least three categories that I was able to 
eyeball quickly. First, is those efforts that have already been 
completed, and therefore would naturally wind down, whether we 
had pursued a servicing mission or not. Second, category would 
be the instruments and how those would be employed for other 
purposes as well. How we could use them in the future, and 
we're committed to doing that. The third, would be to focus on 
the range of other options to extend battery power, to change 
operational protocols. To do all of those things to get the 
maximum service life we can beyond fiscal year 2005, which was 
the design date for the Hubble to begin with. Those are the 
three things that I would look to, and if you would give me an 
opportunity to go examine these----
    Senator Mikulski. Well, I think that is a fair request on 
your part.
    First of all, I want to thank you for responding to my 
initial request for a second opinion, to our request for 
additional study from the National Academy of Sciences, knowing 
that you just got our response, just as we just got the Gehman 
response.
    And we look forward to making sure that we do not lose 
time, or talent with what we have by premature cancelling of 
anybody's job or anybody's contract.
    Mr. O'Keefe. I understand.
    Senator Bond. Thank you very much.
    Mr. O'Keefe. If I could give one final comment or 
observation on this. Again, the judgment call that this turns 
on is whether or not we believe we can mitigate the risks and 
comport with all of the recommendations of the Board. And do it 
at a time that is timely enough in order to actually complete 
the servicing mission. And that's the part that's in doubt. 
Because once the batteries go, the Hubble survives for about 6 
to 10 hours and then that's it. It goes cold.
    So, as a consequence, putting all of our eggs in that one 
basket doesn't work. It is not something that I think is an 
acceptable risk. As a consequence looking at the full range of 
what we do to get the service life is what our commitment is, 
and that's what we've been pursuing. We would be delighted to 
get the Academy's view of what else they think we could be 
looking at in order to pursue that common objective in comport 
with the CAIB recommendations.
    And it's got to be done expeditiously in order to get 
through this.
    Senator Bond. Okay.
    Mr. O'Keefe. So, I am in agreement with you, and we will 
work through what the immediate challenges would be from the 
contractual standpoint in the immediate period--and that's 
something we'll get back to you very, very expeditiously in 
terms of what the combination will be.
    You know that some of it is going to wind down, because the 
work is finished. Some of its going to be towards instruments 
that we could employ for other activities. And some of it may 
well be towards other alternatives we can look to extend the 
service life.
    Senator Bond. Thank you.
    Mr. O'Keefe. All three of those would be acceptable with 
NASA.
    Senator Bond. Thank you, Mr. Administrator.
    Senator Mikulski. Thank you.
    Senator Bond. Let me turn now to----
    Mr. O'Keefe. Thank you.
    Senator Mikulski. I think our battery just ran out.
    Mr. O'Keefe. Thank you, Senator. I appreciate your 
willingness to do that.
    Senator Bond. Senator Stevens.

                     NON-SPACE NEEDS OF THE PROGRAM

    Senator Stevens. Well, Administrator O'Keefe, you make us 
all proud of the job that you're doing with NASA and I want you 
to know that I personally have great confidence in what you're 
doing. I hope you don't misunderstand my question.
    My question is, with this vision, and I appreciate that you 
brought the President's comments to us this morning. With this 
vision, what is going to happen with the other non-space needs 
of the programs that NASA is involved in during this period of 
growth?
    Mr. O'Keefe. Sir.
    Senator Stevens. Are we going to see a change in the other 
missions?
    Mr. O'Keefe. Well, if anything, one of the things that I 
have found absolutely amazing is the organizational response to 
this. This now forces us to integrate, to think about 
applications on a much broader basis than we ever did before.
    One of the absolute indictments that the Columbia Accident 
Investigation Board offered, that others have offered, and lots 
of commentators and critics have suggested, is that the Agency 
has been stove-piped. It has been looking at different 
categories and never inter-relates activities.
    So if anything, what we're seeing is a consequence of this. 
And we've been motivated to move in the direction of how do we 
apply all of those capabilities towards this central set of 
objectives and direction that the President has granted, and 
sent to us and said, that's what I expect you to do.
    Therefore, applying all of those capabilities for earth 
sciences, aeronautics, biological and physical research, space 
flight and space science, in addition to the education and 
inspiration of the next generation of explorers, this is 
something that now I think is a much more integrated 
collaborative effort in that direction.
    I don't see a big diminution. In those central mission 
objectives in what the Agency has been chartered to go do. 
There will be differences of view over whether or not we should 
do a little more or a little less in one area or another. 
That's something, I think, that's well within the range of 
manageable as a discussion.
    But for the purposes of this objective it is a central 
focus. It's a much greater level of clarity than the Agency has 
had in decades. As a consequence, that's what I think the 
enthusiasm will be rallied around. There are modifications that 
can be made as we move along, because nothing is so intractable 
as to preclude any one of those options.
    Senator Stevens. Well, I would be precluded from discussing 
some of the missions, but are there classified missions of NASA 
going to be diminished because if the activities that you have 
described?
    Mr. O'Keefe. No, sir.
    Senator Stevens. Thank you.
    Thank you, Mr. Chairman.
    Senator Bond. Thank you, Senator Stevens.
    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    Mr. Administrator, during the months of the extensive and 
careful deliberations which led to the President' new space 
vision, would you tell us what input, if any, was sought from 
industry during this process. We've been told that there was 
none sought.
    Mr. O'Keefe. Well, the process that we employ, that the 
President sent us off on, is an inter-agency process. In other 
words, public servants engaged in the activity. What we were 
all charged to do, from the Defense Department, the State 
Department, the Commerce Department, the Office of Science and 
Technology Policy, and certainly NASA, and through the process 
that was put together of the National Security Council and the 
Domestic Policy Council, was to bring in all of those external 
views that were being debated in these broader fora. Both 
within the oversight committees of Congress as well as the 
broader conferences and symposia that were conducted after the 
CAIB released its position.
    So, therefore the industry views, positions and thoughts 
were brought into that equation in order to reach the range of 
options. And at one point, we looked at so many options, we 
could hardly keep tabs on them all, in terms of which approach 
we should take. The President's engagement on this point was to 
consistently solicit that broader range of views, and that's 
where we ended out, is in concert with all of those 
perspectives as well.
    Senator Shelby. We have to use foreign launch systems now. 
The budget it seems chooses to use them in the future, which is 
troubling to some of us.
    Mr. O'Keefe. I couldn't comment one way or the other, sir. 
I understand your point, but I am not--I don't think we have 
any greater or lesser international involvement or engagement 
in the activities that the President has directed us to proceed 
with than what we have been encountering now for several years. 
So I don't anticipate or see any intensification of that 
effort.

                          EXPLORATION SYSTEMS

    Senator Shelby. Could you briefly explain the process on 
going within code ``T'' to engage industry as you formulate 
requirements, definitions and program planning decisions in the 
new space exploration program. And particularly Project 
Constellation.
    Mr. O'Keefe. Yes, sir. No, thank you for the question. The 
approach that we were taking, and the organizational code that 
you've referred to is the Office of Exploration Systems.
    Senator Shelby. Okay.
    Mr. O'Keefe. It was announced the day after the President's 
speech. The objective was, and we had been working for the 
previous few months in pulling together all of the components 
of what we do around NASA, to look at large scale systems 
integration challenges. The engineering challenges of 
delivering on a set of programs that require lots of 
integration.
    So again, in my response to Senator Stevens, this is one of 
the consequences, one of the amazing developments as the result 
of the President's charge, is to start looking at the full 
range of activities that we have in the Agency and applying 
them towards common solution.
    So what the Office of Exploration Systems is now looking to 
under Project Constellation, under Project Prometheus, and a 
number of others, is to kind of pull together all of those 
efforts to integrate independently of the mission objectives so 
that we get a common solution.
    We are out engaging the industry very actively, to look at 
a number of different approaches that would call for 
acquisition strategies like spiral development that I referred 
to earlier for the Crew Exploration Vehicle. As well as 
engagement with the broader industry community on Project 
Prometheus on how to generate power and propulsion, something 
we've never had in a spacecraft that now could be used as a 
means to inform those broader acquisition strategies.
    So, we are out there soliciting in a much broader case, as 
is Craig Steidle, our new Associate Administrator for 
Exploration Systems, to include all of those industry interests 
that were basically pulled together as the result of the 
exceptional efforts during the Orbital Space Plane effort was 
engaged in last year.

                        CREW EXPLORATION VEHICLE

    Senator Bond. Mr. Administrator, how much will the Crew 
Exploration Vehicle build on the work already done for the 
orbital space plane? And would you discuss the benefits?
    In other words, I hope that you're not going to try and 
reinvent the wheel.
    Mr. O'Keefe. No, sir. No, I think that you're right on. In 
many ways, a lot of what we engaged in a year ago for the 
Orbital Space Plane, we would have to do now, had we not 
engaged in it over the previous year. Because it really defined 
some of the fundamental requirements of what is necessary for 
developing a capability using existing launch capacity for what 
would be beyond low-Earth orbit. Because, as you know, shuttle 
is restricted to low-Earth orbit by virtue of its 
characteristics.
    Much of what we derived from that experience evolved over 
that time towards an adaptability towards capabilities that 
could go beyond low-Earth orbit. So much of what we did in the 
Orbital Space Plane, I would say, is at least two-thirds common 
with the kinds of challenges we would meet. Because much of 
what is challenging about these efforts is getting off this 
planet and going anywhere.
    The thermal protection system requirements, all of those 
things, then become gradients of that as well as the capacity 
you want to bring with you for wherever it is you want to go, 
for whatever duration or length of time.
    So, in many ways, a lot of these hard questions were very, 
very professionally run to ground during the course of that OSP 
effort a year ago. As a result, we're able to launch right from 
that to this next level. We have got a running start as a 
result of that engagement.
    Senator Shelby. I know that my time is almost up, but I 
want to ask one more question, if I could.

            FUNDING REDUCTIONS IN PHYSICAL SCIENCE RESEARCH

    Senator Bond. Without objection.
    Senator Shelby. Thank you.
    Mr. Administrator, I am concerned as a lot of other people 
are about this significant reduction in funding for physical 
science research. This is a big departure.
    Three distinguished professors in research science recently 
wrote to me to share the following sentiment regarding this 
dramatic cut to physical research.
    And I just want to share with you excerpts.
    While NASA has the mission of planetary exploration it also 
has the goal of improving life on Earth. Towards that goal it 
is the only American agency with the unique capability to 
conduct physical science research in the virtual absence of 
gravity, which we all know. Now, I'll skip on down a little 
bit.
    As you're aware, NASA since you're the Administrator, is 
planning to further reduce all physical science research on the 
ISS and the shuttle, in particular research on material 
science. It is our understanding that the already reduced 
number of materials, science flight investigations from 24 to 
12, will be further reduced to only a couple of principal 
investigators.
    And then, I'm going to turn to crew health. This is another 
excerpt of the letter. Crew health is not just biological-
astronautics. Both Challenger and Columbia crashed due to 
materials failure, not motion sickness, bone loss or radiation 
exposure. Improvements in materials have powered all industrial 
revolutions. A balanced research portfolio will be critical to 
success in NASA's exploration thrust.
    I hope you will look at this letter. And we've talked about 
this already.
    Mr. O'Keefe. Yes, sir.
    Senator Shelby. Privately, but these are some of my 
concerns and I believe they are the concerns of a lot of people 
on the committee.
    Mr. O'Keefe. I would be delighted to take a look at it, 
Senator. And I thank you for raising the issues. It is about 
priorities. There is no question.
    Senator Shelby. Priorities.
    Mr. O'Keefe. They're very difficult to do, but in that 
respect, the President's clear direction to us is that we look 
at utilizing the capacity of the station and focus our research 
endeavor towards understanding expedition missions. That's 
largely life sciences, physiology.
    Senator Shelby. Sure.
    Mr. O'Keefe. But it also includes material sciences kinds 
of activities too, to sustain activities for long periods of 
time.
    Senator Shelby. We've got so much to learn there to benefit 
us.
    Mr. O'Keefe. Yes, sir. Without question.
    Senator Shelby. I know that Senator Mikulski and Senator 
Bond have been in the forefront of all of this. That we have 
benefitted so much from NASA back here as well as out in space.
    Mr. O'Keefe. Yes, sir.
    Senator Shelby. Mr. Chairman, I have a number of other 
questions that I want to submit for the record for the 
Administrator. And I appreciate your indulgence.
    Senator Bond. Thank you very much, Senator Shelby.
    We're going to have a number of questions for the record, 
otherwise we would be here all day.
    Mr. O'Keefe. Thank you, sir.

                          AERONAUTICS FUNDING

    Senator Bond. Mr. Administrator, following on Senator 
Stevens' question, and sort of related to what Senator Shelby 
asked, what role do you see for NASA in the vitally important 
national industry in aeronautics? Did aeronautics take a hit in 
this budget? Is aeronautics going to become a poor stepchild?
    Mr. O'Keefe. Not at all, sir. No, I think that there are 
two major areas that we need to continue to concentrate on, and 
part of what I think you're seeing in the budget projections is 
the need for greater definition as we move along and work 
through each of these successes in terms of applications.
    But the two areas that I think are most profound are, No. 
1, there are a lot of capabilities that we have seen in the 
aeronautical system side that are so important for the purpose 
of continuing our activities on shuttle, and a number of other 
space science-related activities through the NASA Engineering 
and Safety Center (NESC), which has been set up as part of the 
aeronautics enterprise, part of that function, in order to pull 
together all of those capabilities.
    This is one of the organizational legacies of the Columbia 
Accident Investigation Board report to pulling together those 
inter-disciplinary skills necessary to look and inform the 
kinds of challenges we have on trend analysis and a number of 
those kinds of things that were called out in that report. So 
there is a very dominant role in those skill areas that will 
now have applications.
    For example, it is not by accident, that now the Deputy 
Director of the Kennedy Space Center is a guy who came from an 
aeronautics background. So here he is looking at launch 
operations activities, and he has also got a tremendous amount 
of skill and background in aeronautics functions.
    Second area is to look at those kinds of things that look 
at air space management and a range of aviation security and 
safety-related activities. That is a dominant focus and 
priority of what we have now concentrated on in the aeronautics 
area.
    To your broader point, I think, in raising your opening 
statement, how we look at inter-relationships, for example, 
with the Defense Department, through hypersonics, and a number 
of other approaches of developing next generation kinds of 
propulsion power, and design requirements is what we intend to 
do very closely in comport with the Defense Department.
    So all of those factors together, I think, are guiding us, 
adjustments that may need to be made will be informed by our 
successes in all three of those areas.
    Senator Bond. I appreciate your answer. I have the feeling 
that it may be incidental for the benefit for aeronautics and I 
think we need to explore further whether there is going to be 
the kind of directed investigations that would be needed for us 
to maintain a healthy aeronautics industry, domestic and 
international civilian industry in the United States.
    What upgrades to the shuttle should NASA continue to 
pursue? And what new launch vehicle or vehicles may need to be 
developed to carry cargo up? If we're going to have the 
International Space Station, they're going to need cargo.
    And if we're going to go to the Moon and set up a launch 
facility, we've got to haul a lot of stuff. We're going to need 
some big trucks. What are your plans for those?
    Senator Mikulski. Good point.
    Mr. O'Keefe. Well, the first part of your question, I think 
relates very clearly, Mr. Chairman, and I agree with, is what 
upgrades and capabilities or modifications to the shuttle do we 
need to continue with. The focus that we're now vectoring from, 
that was a Service Life Extension Program focus prior to last 
year, is now towards how do we maintain this capability, 
upgrade it and use it with all the safety modifications 
necessary in order to mitigate risk through the end of this 
decade.
    That's how long we intend to operate shuttle. We're going 
to continue on those upgrades, and we've got two out of the 
three orbiters that are in major modification right now. So 
during this period of time while the shuttle is grounded, while 
we're implementing all of these recommendations, we want to 
include those upgrades in order to improve this dramatically.
    The second area is, I think, the requirements to Return to 
Flight--an immediate task right now. We're including those 
upgrades and, I think in your opening comments, you asked what 
are the costs and challenges of doing that. That's what is 
included in the Operating Plan that was just submitted to you, 
that can continue the activity, to incorporate those upgrades 
necessary.

                      CARGO CAPACITY REQUIREMENTS

    The third dimension is, in the latter half of your 
question, focused on what kind of cargo capacity requirements 
we're looking to. Well, there are two basic areas that we're 
looking at there.
    The first one is to develop and continue to build on the 
capabilities of our international partners, who have had the 
requirement to follow through for the International Space 
Station. It's a lot of lift, a lot of logistics requirements 
for the station, that will now be off of the space shuttle in 
the future, so that we can get the components up there and 
finish the construction of the station.
    Second area would be to look at cargo lift capacities; 
frankly, some of them will be explored as a consequence of this 
earlier understanding we've reached and discussed on Hubble 
servicing, for example, robotically, autonomously, that could 
also inform that. So I think that may be an acceleration of 
what kind of launch requirements we would need to have, for 
what kind of lift requirements, in order to install what 
autonomously, robotically, over that span of time, that will 
give us a much deeper understanding of it.
    So we will be building on existing capabilities and 
exploring other opportunities for lift capabilities for cargo 
in order to comply with the CAIB report to separate the crew 
from the cargo is our objective.
    Senator Bond. Maybe I'm not quite clear, but all of these 
things that we're exploring are assuming, No. 1, either we have 
the shuttle, and if you're going to save money by not doing the 
shuttle recertification in 2010, I am gathering that there 
won't be a shuttle after 2010 to do the heavy lift. That leaves 
us dependent upon international partners or somebody else to do 
the heavy lift after 2010?
    Mr. O'Keefe. Oh, no, sir. Not at all.
    That certainly is, there are competing options and 
alternatives there as well, within the United States, for our 
capability.
    The capabilities we have for heavy lift vehicles are 
through the EELV with the Defense Department, the Atlas and 
Titan Programs that they maintain. Plus we are looking at how 
we might employ, for example, the shuttle shack--the solid 
rocket boosters, the external tanks, all of those things give 
us some lift capacity. We may need to reassemble, short of 
including the orbiter on that. There are all kinds of 
capabilities we have and we have got to look to for launch 
capacity.
    What is important about the way and the direction the 
President has given is that it lets us look at existing 
capabilities which are right now underutilized through the 
Defense Department.
    So in working with them for launch services requirements, 
for the heavy lift, for expendable launch vehicle capability 
they have, plus what we are already using right now to lift 
shuttle are derivatives thereof, we have the kinds of existing 
capabilities that are right here in the United States, that 
certainly will have traction and capability in terms of 
whatever lift requirements we have for Project Constellation, 
as well as any cargo capacity that may be required in the 
future.
    Senator Bond. I think that we will need to be hearing more 
specifics on which options you're pursuing.
    Mr. O'Keefe. Sure.
    Senator Bond. Because I know there are a lot of 
possibilities out there.
    Mr. O'Keefe. Yes.
    Senator Bond. But facing the end of the shuttle in 2010 we 
ought to be thinking now.
    Mr. O'Keefe. Absolutely.
    Senator Bond. About how we're going to get all of this 
equipment up there.
    Mr. O'Keefe. Thank you very much, Mr. Chairman.

                 RETURN TO FLIGHT--CAIB RECOMMENDATIONS

    Senator Mikulski. Thank you very much, Mr. Chairman.
    Mr. Administrator, could you tell us, and I want to talk 
now about fully implementing the CAIB's recommendation on how 
to return to flight.
    How much do you anticipate fully implementing the CAIB's 
recommendations. And what is your timetable on doing that? Do 
you hope to be able to do this all in one year?
    Mr. O'Keefe. Okay. Thank you, Senator. That's a very--it's 
an issue----
    Senator Mikulski. Is it one orbiter a year? Or----
    Mr. O'Keefe. Yes, it is an issue that is consuming a lot of 
our focus and attention now, because again there is no day 
light on the commitment that we're going to implement those 
recommendations. Absolutely. There is not a day that goes by 
that I am not reminded of exactly what the consequences are of 
not doing that and why Columbia was lost.
    Senator Mikulski. We all feel the same way.
    Mr. O'Keefe. So we're pursuing that. There are 29 
recommendations, as you're aware, and 15 of which must be done 
before the Return to Flight.
    We have a group we assembled last summer of roughly 25 or 
30 experts in all kinds of disciplines and fields who are 
overseeing our activities in this. There is a regular update 
that we've been issuing since September, on a monthly basis, on 
every single step to comply with those 15 and that broader 29 
recommendations overall.
    That's publicly released. It's on the website, it's been 
released to all the committees of Congress, and we will 
continue to do that, not only up to Return to Flight, but 
thereafter. We're going to continue this open effort all the 
way through.

                         RETURN TO FLIGHT COST

    Senator Mikulski. Cost?
    Mr. O'Keefe. Sorry.
    Senator Mikulski. Cost?
    Mr. O'Keefe. Cost right now in 2004 is established at $265 
million, of which that has become a real serious challenge for 
us to implement this year, in light of the Congress's direction 
to reduce the International Space Station by $200 million. 
We've had to cover that reserve as a result, and we have to 
find $265 million within funds available in order to pursue 
this, because no additional funds were appropriated this past 
year. So we're scrambling to do that, in the operating plan. 
You have that. It was submitted here, identifies the kinds of 
resources to do that. A year ago, in 2003, we absorbed about 
$93 million in order to proceed with that.
    Senator Mikulski. But Mr. Administrator----
    Mr. O'Keefe. I'm sorry.
    Senator Mikulski. We're looking at how to be your partner 
to do this. So what do you need in fiscal year 2005 to do this?
    Mr. O'Keefe. Well----
    Senator Mikulski. And what we also, in addition to that, 
have to look at reprogramming in fiscal year 2004 for you to 
stay the course in fiscal year 2004.
    Mr. O'Keefe. Yes, Senator.
    Senator Mikulski. So you need more in fiscal year 2004 in 
some variation of coming up with a supplemental to implement 
this. This is the anchor from which all floats.
    Mr. O'Keefe. Okay.
    Senator Mikulski. So that's one.
    So what do we need to make sure? Do you have enough money 
in fiscal year 2004, or do we need to be ready to do something 
in partnership with you.
    And No. 2, how much will you need for fiscal year 2005 to 
continue to make, to implement the $15 million we need to 
Return to Flight, but then the other $14 million----
    Mr. O'Keefe. Yes.
    Senator Mikulski [continuing]. To make the $15 million 
workable.
    Mr. O'Keefe. Absolutely.
    Senator Mikulski. And sustainable.
    Mr. O'Keefe. Absolutely. Now, in fiscal year 2004, as I 
mentioned, $265 million is how much we're absorbing now. Your 
assistance and support of that activity through our operating 
plan would be most appreciated now while we work through that.
    In fiscal year 2005, the projections that we put in the 
budget involved here and covers about a $374 million increase 
in the fiscal year 2005 request that will implement all of 
these recommendations and continue along in that direction. It 
covers the broader area, not just the 15 recommendations, it's 
all 29 recommendations.
    For example, the costs to operate, run NASA Engineering and 
Safety Centers. It's part of the expense involved in this, and 
other organizational changes that we have advanced. So let me 
give you a complete list for the record of all of the things 
that's included in that, that's part of----
    Senator Mikulski. But, roughly, it's about $375 million to 
$400 million.
    Mr. O'Keefe. In 2004.
    Senator Mikulski. And you know how these things tend to go 
up.
    Mr. O'Keefe. In fiscal year 2005, as an increase. Yes, 
ma'am.
    Senator Mikulski. Yes.
    And do you need additional funds in fiscal year 2004?
    Mr. O'Keefe. Two hundred sixty-five million dollars is the 
amount we've proposed to reallocate and shift, and that's the 
operating plan that you have before the committee for your 
consideration.
    Senator Mikulski. I see.
    And when do you anticipate those 15 recommendations for 
Return to Flight to be done? Do you anticipate that they will 
be done in calendar 2004, or will this take us also into 
calendar 2005?
    Mr. O'Keefe. I anticipate, based on our current assessment 
of Return to Flight challenges that we should see 
implementation of all of those recommendations, 15, prior to 
Return to Flight, in this calendar year. That will be necessary 
in order to facilitate that prospect of any Return to Flight in 
the early part of next, if we're going to go the way----
    Senator Mikulski. If you could furnish to the committee 
essentially a sequencing of the calendar if you will, so that 
we can get a sense of time frame.
    Mr. O'Keefe. If I could, Senator, that's part of a last 
update that we last submitted. And we're going to update it 
again here in about 2 weeks' time. So we will positively 
provide that for you.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                            NEW TECHNOLOGIES

    Senator Mikulski. Alright. That's terrific.
    Now, this also goes to Senator Bond. One of the things that 
I think we both admire about NASA is not only the exploration 
of what's out there, but the invention of technology, the new 
ideas that then lead to new products, that also benefit the 
larger American community. We come up with new products, we're 
more competitive, we have jobs.
    As you're looking at the development of a new vehicle, 
we'll call it the crew exploration, is that part of the intent 
to be looking at these whole new concepts like nanotechnology, 
et cetera?
    And along the way, do you anticipate that this will accrue 
to our knowledge to, No. 1, aeronautics because we're competing 
with Airbus? No. 2, new kinds of materials, because won't they 
have to be lighter, more resilient, in order to be able to go 
out there?
    Mr. O'Keefe. Absolutely.
    Senator Mikulski. Whenever we go?
    Mr. O'Keefe. Absolutely.
    Senator Mikulski. And is this part of the thinking that 
along the way to getting to Mars, when we get there, that part 
of this will be the inventing of new technologies, new 
products, new materials?
    Mr. O'Keefe. Yes, ma'am. Absolutely.
    Senator Mikulski. New ways of monitoring the health of the 
astronauts as they go?
    Mr. O'Keefe. Positively. That's precisely it. Again, so 
much of what drove the President to select this configuration 
for the vision statement, for the strategy, for the 
Presidential directive, for the first time ever it has got that 
level of detail to it, is an assumption of that technology 
development that's going to advance our capabilities to do 
this.
    Absolutely that is the intent. That's how we're proceeding. 
Part of what the Aldridge Commission is going to be working 
with is the challenge of thinking about implementation 
strategies to achieve that precise outcome. So we're looking 
forward to their input as to how they're going to do that. And 
we're due to receive that by this summer.
    Senator Mikulski. Well, Mr. Administrator, what I see is 
not competing visions. But competing demands for revenue.
    I believe the vision is an exciting one, it is what has 
excited humankind every since Icarus tried to go, and why the 
Wright Brothers got off the ground a hundred years ago. And why 
we had our first launch to the Moon in 1968, et cetera.
    So the vision is exciting. The idea of inventing new 
technologies and products which will benefit both our country 
and mankind is exciting.
    And then, we have here the challenges of completing the 
work that we have, which is specific, immediate, and 
achievable. The International Space Station, the future of 
Hubble. So we see that what we have here is not a competing 
vision, but very serious stresses on the NASA program.
    And, what concerns me with the President's recommendation 
and vision is that there is not enough money to do it. And what 
is being proposed in the President's budget would enable us to 
stay the course, and work with you for a return to flight.
    But I think this is going to have very serious challenges. 
And also, we're going to have to look at the consequences of 
deferring new space and earth science missions, freezing 
spending, eliminating research, these are pretty tough choices.
    Mr. O'Keefe. Oh, I agree, Senator.
    It is and I think that two things apply here. The first one 
is that with this strategy, it is about priorities and which 
focus do we want to take to them. That is not to say that the 
research and activities that may not be of the highest priority 
to support this are irrelevant. But it, nonetheless, has to be 
focused towards these activities, lest it becomes maintenance 
of status quo.
    Secondly, I would seek and I hope to convince you at some 
point, yes, this is affordable. Yes, what is in this resource 
base is what the President, the administration, believes is 
necessary to build on these technologies and do these things. 
Along the way, it's based on achievement of success and an 
adjustment thereafter, as opposed to some crash program that is 
designed towards some final solution at the end of the day.
    So it is an approach I think that lays out very 
methodically that journey, not the race, that's necessary in 
order to achieve these. But at the same time, our abilities to 
achieve those outcomes along the way and see the results as we 
move along, to accomplish that.
    In the process, I think it is revectoring some of those 
capabilities towards specific goals as opposed to for its own 
sake. What we're really trying to do here is put more focus to 
it.

                         SPACE SCIENCE DEVOTION

    Senator Mikulski. Mr. Chairman, I have other questions that 
I will put into the record.
    But I think we have covered a lot today. And I look forward 
to more conversations with you. And again, I want to thank you 
for the courtesies that you have extended to me, personally, 
and to all who were concerned about Hubble.
    We can't do space science without our astronauts and we 
know that. So we're always on the side of the astronauts.
    Thank you.
    Mr. O'Keefe. I appreciate that, Senator. If you would 
permit me to, Mr. Chairman, I have got a short paper, Senator 
Mikulski--we had talked about this too--that kind of outlines 
the rationale, as well as, the considerations that go into the 
servicing missions. I would like to insert that for the record, 
that does define them.
    Senator Bond. Without objection. We welcome it.
    [The information follows:]

       Cancellation of the Fifth (SM-4) Hubble Servicing Mission

                           EXECUTIVE SUMMARY

    The Hubble Space Telescope (HST) was originally launched aboard the 
Space Shuttle in 1990, with an as designed mission lifetime of 15 
years. Since then the telescope has been serviced or upgraded four 
times, each requiring a very complex, dedicated Space Shuttle mission 
and unique HST servicing support equipment. Even before its repair 
mission in 1993, the HST had generated significant scientific 
discoveries. The science return from HST has already vastly exceeded 
the original expectations.
    NASA plans continued operation of the HST until it can no longer 
support scientific investigations anticipated to occur in the 2007-2008 
time frame. The telescope's life may, in fact, be extended if NASA is 
successful in employing operational techniques to preserve battery and 
gyroscope functions. Meanwhile, NASA is aggressively investigating 
innovative ways to extend the science lifetime of the HST for as long 
as possible, including robotic servicing to provide extension of power 
storage. Current plans are to safely deorbit the HST by a robotic 
spacecraft by approximately 2013.
    Although the HST deployment mission and four subsequent servicing 
missions were successfully conducted, the Columbia tragedy underscored 
the inherent risk in each and every Space Shuttle mission and 
reinforced the need for increased ability to deal with all potential 
contingencies, particularly catastrophic damage to the Orbiter's 
thermal protection system (TPS).
    Without the benefit of docking at the ISS many new tools, 
processes, and techniques would be required for inspection and possible 
repair of the TPS. More significant would be the requirement to 
dedicate two Space Shuttles to the mission to ensure astronaut safety. 
In the event of a significant problem with no safe haven for the 
astronauts to wait as in ISS missions, a second Shuttle would have to 
be launched and employ untried and uncertified techniques to perform a 
rescue. Hence, a Shuttle based HST servicing mission presents known 
additional risks, and offers few options to respond to serious problems 
in orbit.
    Recognizing the increased risks involved in all Shuttle flights 
following the tragic loss of the Columbia and crew NASA elected to 
reduce its planned Shuttle manifest to only missions to the 
International Space Station (ISS). The decision was also made, on the 
basis of risk, to not pursue a final servicing mission to the HST, but 
instead to investigate other options to extend the life of the Hubble.

  COLUMBIA ACCIDENT INVESTIGATION BOARD FINDINGS AND IMPACT ON FUTURE 
                                MISSIONS

    The Columbia Accident Investigation Board presented NASA with 29 
recommendations, 15 of which were required to be completed before the 
Space Shuttle could return to flight. Highlights of these flight-
critical recommendations included elimination of damaging insulation 
shedding from the external tank--the cause of the Columbia tragedy--
ascent imaging, on-orbit inspection, and thermal protection system tile 
and Orbiter leading edge repair. NASA will satisfy all of these 
recommendations before it launches STS-114, the next Shuttle mission. 
The Board stressed that the Space Shuttle is still a developmental 
vehicle and that risk and risk mitigation must be treated accordingly. 
NASA's original vision was to fly the Shuttle to mid-decade or 2020 for 
a total of 75-80 more flights. NASA fully accepts the Board's 
recommendation and balancing mission criticality against possible loss 
of crew and vehicle, consciously decided to retire the Space Shuttle 
after the completion of the International Space Station (ISS), 
recognizing that the best risk mitigation strategy is to fly less.
    In addition, NASA realizes that a ``safe haven'' in space 
capability is required. This ``safe haven'' capability goes beyond 
compliance with the Columbia Accident Investigation Board 
recommendations and is designed to increase crew safety during the 
remaining Space Shuttle missions. Should damage occur to the Shuttle 
thermal protection system that can not be repaired and that would 
preclude safe reentry, the crew will be able to shelter at the ISS 
until another vehicle can be readied for rescue. Agency policy will 
require each Space Shuttle mission to have backup rescue capability. 
``Safe haven'' is the ultimate recognition that, while NASA will make 
the Space Shuttle as safe as possible, the Columbia tragedy has taught 
us that there are still significant risks inherent in Space Shuttle 
launch, orbit operation, and reentry.

 UNIQUE REQUIREMENTS AND INCREASED RISK IN THE HUBBLE SERVICING MISSION

    Whereas tools, techniques, and procedures would be similar on each 
ISS mission; e.g., inspection, thermal protection system repair, safe 
haven readiness, and rescue scenario, an HST servicing mission would 
have unique requirements, both on-orbit and in ground processing. 
Options for dealing with an on-orbit emergency are reduced and 
decisions for reacting to any emergency would have to be made quickly. 
These two considerations, and the attendant schedule pressure on the 
flight crews and support teams, add considerable additional risk.
Lack of Significant Safe Haven
    The areas of additional risk relate to the ability to provide 
``safe haven'' while inspection, repair and potential rescue are 
undertaken, and to the procedures for inspection and repair themselves. 
It has been projected that a typical Space Shuttle flight crew of seven 
astronauts could stay aboard the ISS for up to 90 days, if warranted, 
due to an emergency situation on the Space Shuttle. This safe haven 
capability allows the flight crew and ground teams to consider all 
options, determine the best course of action, take the time required to 
understand the cause of the failure and affect repairs, or send the 
appropriate rescue vehicle with the right equipment to bring the crew 
home. Clearly, rushing this process would introduce considerable new 
risk and in the worse case result in the loss of another vehicle.
    In the case of a Hubble servicing mission, the amount of stay time 
on orbit is significantly shorter due the limited stores of cryogenic 
oxygen on the Orbiter. Therefore, other measures would be required. 
Specifically, a second Space Shuttle on an adjacent launch pad would 
have to be specially prepared, uniquely configured to launch 
expeditiously if required to perform a rescue mission. This scenario 
raises several concerns, addressed in the paragraphs below.
Unprecedented Double Workload for Ground Launch and Processing Teams
    Two vehicles would be processed for essentially the same launch 
date. Any processing delays to one vehicle would require a delay in the 
second vehicle. The launch countdown for the second launch would begin 
before the actual launch of the first vehicle. This short time period 
for assessment is a serious concern--it would require a highly complex 
process to be carried out in parallel, and it would not permit thorough 
assessment by the launch team, the flight control team, and the flight 
crew.

No Changes to Cargo or Vehicle Feasible
    Because of the very short timeframe between the launch of the first 
vehicle and the requirement for a rescue flight, no significant changes 
could reasonably be made to the second vehicle or the cargo. This means 
that it would not be feasible to change the cargo on the second Space 
Shuttle, to affect a repair to the first Shuttle, add additional rescue 
hardware, or make vehicle modifications to avoid whatever situation 
caused the need for a rescue attempt in the first place. Not having 
sufficient time to make the appropriate changes to the rescue vehicle 
or the cargo could add significant risk to the rescue flight crew, or 
to crew transfer. The whole process would be under acute schedule 
pressure and undoubtedly many safety and operations waivers would be 
required.

Rescue Mission
    Space Shuttles routinely dock with the ISS; Soyuz evacuation 
procedures are well trained. These represent the normal operations mode 
today supported by extensive training, analysis and documentation. A 
rescue from the ISS, with multiple hatches, airlocks, and at least one 
other vehicle available (Soyuz), is much less complex and risky than 
that required by a stranded Space Shuttle being rescued by a second 
Space Shuttle.
    In response to a question by the Columbia Accident Investigation 
Board, NASA analyzed a hypothetical rescue mission between two Space 
Shuttles and found that the effort would have required many unproven 
techniques, such as emergency free-space crew transfer in space suits 
while performing Space Shuttle to Space Shuttle station-keeping while 
traveling 17,500 mile per hour above the earth. These major safety 
risks are not incurred during rescue from the ISS.

Tile Survey (Expanded Inspection Requirements) and Thermal Protection 
        System Repair
    The current inspection method for acreage tile, gear door seals, 
and the elevon cove is to photograph these areas from the ISS during 
rendezvous. To support an HST servicing mission, NASA would have to 
develop a new method for inspecting these critical areas using an 
Orbiter boom. Unvalidated autonomous boom operations represent an 
unknown risk. NASA's current planned TPS repair method for an ISS-based 
repair uses the ISS robotic arm to stabilize an EVA crew person over 
the worksite. These assets are not available for an HST servicing 
mission, so NASA would have to develop a single-use alternate method 
for stabilizing the crewmember. This method would have to provide 
greater stability than the current ISS option under development to 
protect both the crewmember and the other TPS areas from additional 
damage. Such a concept represents a challenging undertaking, which 
could take months or years to develop in order to meet safety and 
mission assurance standards/requirements.

          RETURN TO FLIGHT AND ISS U.S. CORE COMPLETE TIMELINE

    In the process of addressing the Columbia Accident Investigation 
Board recommendations and implementing additional improvements to 
achieve the safest flight possible, NASA has uncovered a number of 
problems that had previously gone undetected. The removal and 
replacement of unsafe hardware has deferred Space Shuttle launch 
milestones. NASA projects the first opportunity for a Space Shuttle 
launch to the ISS to be in March 2005. Eight flights are scheduled to 
meet our international commitments, the assembly of the U.S. core 
segments of the ISS. Given the ISS assembly schedule, the earliest NASA 
could launch a servicing mission to the HST, based on requirements for 
daylight launch to fully assess ascent conditions by imagery and 
thermal constraints when docked to ISS, would be Spring 2007.
    Based on the evaluation of the engineering data on the HST, the 
lifetime of the Observatory on orbit is ultimately limited by battery 
life, which may extend in to the 2007-2008 timeframe. Scientific 
operations are limited by gyroscope lifetime that is more difficult to 
predict. If all of the NASA effort is concentrated on a Shuttle 
servicing mission, every step in the process must be successful with no 
allowance for schedule slips. Before launch all of the recommendations 
of the Columbia Accident Investigation Board must be met. The launch 
conditions must be perfect, and all tailored HST mission unique 
components must be in place with very tight schedule constraints. If 
any of the many elements do not develop as planned, the telescope may 
cease operations before a successful mission could be mounted.

               HUBBLE SPACE TELESCOPE'S SCIENTIFIC LEGACY

    Not since Galileo turned his telescope towards the heavens in 1610 
has any event so changed our understanding of the universe as the 
deployment of the Hubble Space Telescope. From its orbit above Earth's 
atmosphere, the HST is free from the atmospheric turbulence that all 
ground-based telescopes must contend. Thus, HST has been able to return 
images of astounding clarity and sensitivity. HST imaging and 
spectroscopy have resulted in remarkable scientific achievement, 
including the determination of the changing rate of expansion of the 
universe and detailed studies of forming galaxies, black holes, galaxy 
hosts of gamma-ray bursts and quasars, active galactic nuclei, 
protostars, planetary atmospheres, and the interstellar and 
intergalactic medium. Scientific results have significantly surpassed 
original expectations. By 2005, the HST will have fulfilled every one 
of its scientific objectives and top-level technical requirements. 
Moreover, the Hubble will continue to collect observations for several 
more years. Even after the HST is no longer in service, the rich 
archive of HST data (already more than 100,000 observations of 20,000 
unique targets) will continue to provide new discoveries for the years 
to come, with full support by NASA for both archive operations and 
research grants.

         FUTURE PLANS FOR HUBBLE SPACE TELESCOPE AND ASTRONOMY

    Astronomy is a critical part of the NASA's exploration initiative. 
NASA is aggressively investigating innovative ways to extend the 
science lifetime of the HST for as long as possible, including a 
possible robotic servicing option. We are receiving several responses 
to our recently released Request For Information (RFI) on HST End of 
Mission Alternatives soliciting concepts for robotically-provided 
battery power extension. Indeed, this option appears to have greater 
likelihood of success than the possibility of accomplishing all the 
recommendations of the Board in time for a successful Hubble servicing 
mission.
    HST is not NASA's only portal to the stars. It is one of many 
telescopes used by astronomers to study the universe using various 
apertures and wavelength bands. Hubble, primarily used for observations 
of visible light, is one of the four orbital ``Great Observatories'' 
designed for use across the spectrum. The other three include the 
Compton Gamma-Ray Observatory (1991-2000), the Chandra X-Ray 
Observatory, and the infrared Spitzer Space Telescope. In the years 
since Hubble was launched with its 2.4-meter aperture, many new ground-
based telescopes have been built with larger apertures that enable 
observations with increasingly higher angular resolution, though 
subject to the blurring effects of Earth's atmosphere.
    The James Webb Space Telescope (JWST) program has been strengthened 
to assure a 2011 launch date. Once on orbit, this advanced technology 
infrared telescope will provide insight into the a region of the 
spectrum where we will be able, like never before, to view the 
formation of the earliest galaxies. The JWST will build on the 
successful science of the Hubble via the most advanced instrumentation 
and a larger 6.5 meter aperture.
    The following table lists larger optical telescopes now or soon to 
be available along with Hubble and also several examples of large 
telescopes available or in development for observations at other 
wavelengths.

                       EXAMPLES OF LARGE TELESCOPE FACILITIES AVAILABLE OR IN DEVELOPMENT
----------------------------------------------------------------------------------------------------------------
                                                    Optical +IR
            Radio/MM                 Infrared       (aperture,      Ultraviolet         X-Ray        Gamma Ray
                                                      meters)
----------------------------------------------------------------------------------------------------------------
VLA                               Spitzer         SALT (11.0)     HST              Chandra         GLAST
GBT                               SOFIA           Keck I, II      GALEX            XTE             SWIFT
                                                   (10.0)
ALMA                              JWST            Hobby-Eberly    ...............  XMM-Newton
                                                   (9.2)
Arecibo                           HST             LBT (8.4 x 2)   ...............  Astro-E2
FCRAO                             ..............  Subaru (8.3)    ...............  SWIFT
VLBA                              ..............  VLT (8.2 x 3)
CSO                               ..............  Gemini (N & S)
                                                   (8.1)
                                                  HST (2.4)
----------------------------------------------------------------------------------------------------------------

    The HST program has provided a significant amount of funding 
support for U.S. astronomers; in fact, it is currently providing 
approximately 20 percent of all direct grant support. After HST 
observations have ceased, NASA plans to continue to support ongoing 
grants and to offer new grant support for HST archival research until a 
similar grant program is in place for the upcoming James Webb Space 
Telescope program. This will ensure stability to the research community 
and full use of the rich HST data archive throughout this period of 
transition.

                               CONCLUSION

    The cancellation of HST-SM4 was a difficult decision. HST is 
producing world-class science. However, NASA cannot justify the 
additional risk that such a unique mission would entail, based on what 
must be done to assure greatest protection to the crew. It is 
increasingly apparent that our choice is to either fully comply with 
the Columbia Accident Investigation Board report or conduct the 
servicing mission, but not both. We must be responsible on all future 
flights and be fully compliant. NASA will continue to aggressively 
pursue options to extend the science lifetime of the Hubble by means 
other than Shuttle servicing. NASA will continue to be a major 
supporter of astronomy in the future as the Agency continues to explore 
the universe.

    Mr. O'Keefe. We appreciate it very much, Mr. Chairman. 
Thank you.
    Thank you, Senator for your courtesies as well. I 
appreciate that.

                           SHUTTLE RETIREMENT

    Senator Bond. Mr. Administrator, as my colleague from 
Maryland has indicated, we're not just going to keep the record 
open for further questions. This is just the beginning of a 
dialogue because these questions are very serious, they're very 
extended.
    I want to step back. I am still concerned about the 
retirement issue. In the fall of 2002, NASA said that they were 
going to continue operating the shuttle until 2015 or perhaps 
2020. Now, with the CAIB report, saying that the shuttle must 
be recertified by 2010. And the costs there, I see this as the 
deadline to retire the shuttle.
    But I am concerned, given the reality that ambitious 
schedules are almost never met by NASA or any other entity on 
the cutting edge of technology and science.
    Are we going to be tempted to force more missions in to get 
the space shuttle, to get the International Space Station fully 
established by 2010 as the President indicated? Are we going to 
be taking or running too many missions at a risk?
    If the shuttle has to be flown past 2010, due to possible 
schedule slips, or the unavailability of either other 
international partner vehicles, or commercial vehicles, what 
would be the costs of recertification of these shuttles? What 
are the fall back numbers and prospects?
    Mr. O'Keefe. Yes. I appreciate it, Mr. Chairman. The 
approach we've taken in this strategy, which is clearly 
enunciated in the President's directive, is to complete the 
International Space Station. Senator Mikulski, both you and the 
Chairman have enunciated it here. Our objective is to minimize 
the number of flights necessary to achieve that task. Because 
that's a driving philosophy that does that. You're right, Mr. 
Chairman. The approach we used a year and a half ago, of 
looking at service life extension, was to try and operate the 
shuttle for as long as we could sustain its service life. The 
Columbia accident changed all of that.
    It opened everybody's eyes to what the risks are of doing 
this. It is not an operational vehicle. It's an experimental 
one. It will be experimental to its last flight and last 
landing when it's retired. That milestone, not date, that 
milestone will be the completion of the International Space 
Station. The President's directive is very clear on that. Our 
task is to try to achieve that by the end of this decade. Based 
on the flight manifest, if we're able to return to flight in a 
timely manner here, next year, we can achieve that without a 
break-neck schedule that would be required to do that.
    What we're working with our international partners on right 
now is developing exactly what are the modules and components 
that we absolutely intend to deploy to get the full science 
yield and research capability out of the International Space 
Station for years to come. That's what is going to drive our 
considerations rather than the calendar.
    Senator Bond. Well, will the Columbia Accident 
Investigation Board report based on 2010 as the time we needed 
the recertification, or was it based on a certain number of 
flights that the shuttle would take before it would need to be 
recertified?
    Mr. O'Keefe. Okay.
    Senator Bond. I mean, you got two different numbers.
    Mr. O'Keefe. Right.
    Senator Bond. We're going to retire it in 2010, but then 
we're not going to retire it until we complete the space 
station.
    Mr. O'Keefe. Right.
    Senator Bond. What is the driving deadline--when the 
Columbia Accident Investigation Board said we had to recertify 
the shuttle?
    Mr. O'Keefe. Thank you, Mr. Chairman.
    I am not aware of what drove the Columbia Accident 
Investigation Board to pick an arbitrary date. If anything, I 
found it kind of baffling.
    Senator Bond. Maybe we should seek some clarification on 
that, because is time wearing it out? Is the number of flights 
wearing it out?
    Mr. O'Keefe. Oh, I would----
    Senator Bond. Do we need to have more flights? I mean, 
there are some questions here that need to be addressed.
    Mr. O'Keefe. Sure. But the approach that we're using, 
rather than trying to delve into what may be in the psyche of 
13 members and why they picked that date----
    Senator Bond. No, not psyche. But what was that reason?
    Mr. O'Keefe. I understand.
    Senator Bond. Foundation?
    Mr. O'Keefe. The approach we've taken to it is what big 
milestones have driven this, and that's the completion of the 
International Space Station. We believe we can do that by the 
end of this decade.
    I will know a better answer to that once we have convened 
with our international partners to look at what that final 
configuration looks like. That then tells me how many flights 
you actually have to conduct. Based on the preliminaries here, 
we're not talking about a number that is going to surprise 
anybody. We're looking at something in the range of, certainly 
20 to 30 flights is the maximum number that could be obtained 
in that time. That outer edge is really larger than what we 
might have anticipated. So, we'll know the answer to that one a 
lot better once we get the final configuration in place. And 
that's what the President's directive is to do.
    The certification question is something that we're going to 
have to enjoin at some point to figure out whether or not that 
butts up against the milestone objective of completion of the 
station.

                          ALDRIDGE COMMISSION

    Senator Bond. We've talked about the Aldridge Commission. 
If it turns out that the Aldridge Commission has 
recommendations that contradict what NASA is asking for in 
fiscal year 2005, are you going to come back to us, or are you 
doing some back channeling? Are they going to be on target with 
your recommendations? Or what happens if we get a surprise?
    Mr. O'Keefe. I don't anticipate a surprise. In every 
discussion that I've heard that the Commission has engaged in, 
their terms of reference, if you will, the charter that the 
President gave them, is to go out and look at implementation 
strategies. One of the earliest understandings that I have had 
with all of the commission members is that the way this 
particular strategy has been developed, it gives us ample 
opportunities to make adjustments based on successes as we move 
along, rather than some finite set of goals that must be 
achieved by date certain. So I don't see a lot of daylight in 
terms of what approach they will take.
    What I do see from them is a lot of creative ideas about 
how we should go about implementing this, as it pertains to 
commercial and industry involvement, what degree of 
international participation and how we should do it, 
acquisition strategies on the spiral development that I talked 
about a little bit.
    There is a whole range of things that they've put in their 
``to do'' list, if you will, that I think is going to help 
inform us how to implement this properly, efficiently, and at 
affordable costs. So I don't see a lot there. And we're 
spending a lot of time engaging with them on their findings 
thus far.

                      VISION FOR SPACE EXPLORATION

    Senator Bond. Okay, let me ask one last question that 
concerns all of us. I think we have touched on it a number of 
ways. Both Project Prometheus and implementing that new NASA 
vision, are going to consume lots of funds in the next 5 to 10 
years. Prometheus itself could cost $3 billion over 5 years.
    And the vision is obviously redirecting a whole slew of 
funds with large known program costs, and other costs 
uncertain. How is NASA going to fund the many opportunities 
that present themselves in the future that fall outside the 
vision. They've already been raised.
    Senator Shelby mentioned material science. Senator Mikulski 
and I are very concerned about that. We're also concerned about 
Hubble. Is NASA going to be unable to continue commitments to 
current activities to meet these goals?
    We're going to have some real squeezing out on some things 
that we think have been very vital scientific breakthroughs by 
these two major projects. What's your thought on those?
    Mr. O'Keefe. Thank you, Mr. Chairman. My thinking is that 
the President's direction and vision that he has articulated is 
completely in line with the directions we're moving, in terms 
of what our mission requirements are for the agency. If 
anything, it clarifies. It defines what it is we should be 
doing with much greater precision.
    So it is not here are all of our mission objectives and 
here is another thing glued on top of it. It is very much in 
concert with the direction we're going, and lends greater 
precision to what that result should be. In many ways his 
direction answers some of the broader questions. Part of what 
we're intent on doing is integrating those capabilities. To 
assure that it is not what is inside and what is outside the 
vision objectives. It is what is within our mission to go carry 
out this strategy. And how do we employ that best.
    So along the way, to the extent that there are adjustments 
required in order to better fulfill that objective, or to meet 
other mission requirements of the agency, we intend to do that 
full range approach of an integrated direction of where we're 
headed.
    I don't see things falling outside of it. There are 
priorities. There are going to be differences on that. On the 
sciences, for example, no question understanding the 
expeditionary nature of long term space flight, power 
generation requirements and so forth, are the kinds of things 
that we must do if we're going to obtain this broader strategy 
objective. But that's fully in concert with what the mission of 
this Agency should be, and that's greater clarity than we've 
had in at least a couple of decades.
    Senator Bond. Well, Mr. Administrator, thank you very much 
for your time and for your exposition of the vision and how 
you're going to meet it.
    I will have quite a few questions for the record about the 
cost of the Moon/Mars vision, the international partners, and a 
number of other things.
    And as I said, there are quite a few things on which we're 
going to need to follow up with you, and continue to work with 
you as we try to figure out how we can get the job done with 
what. Frankly, it looks like inadequate resources from here. I 
am hoping we can find the resources to carry out all of these 
wonderful things.
    But looking at the budget and what we're seeing, as 
available for this committee, I am very much concerned.
    Senator Mikulski, any closing thoughts?
    Senator Mikulski. I know that we're going to be having an 
on-going conversation. I'll just put out some flashing lights. 
No. 1, in terms of the replacement for the shuttle, it has 
been, and I caution you that it's been the history of NASA to 
over promise both in terms of what it can deliver, when it can 
deliver, and when it could deliver it.
    We watched the development of the shuttle. Again, it was 
going to be the answer to everything, and it's been a 
remarkable vehicle. But at the same time, it was over promised, 
over budget, et cetera. Just know that's what we worry about.
    Mr. O'Keefe. I do, too, Senator.
    Senator Mikulski. The second thing that I think that 
applies to this is that impact on personnel and morale.
    Senator Bond and I are very concerned about the fact where 
are the scientists and engineers coming from, and how to get 
young people excited in this. But if they devote their whole 
life preparing for research in a particular area, then all of a 
sudden things start to be cancelled because of budget or 
shifting priorities, that is going to have an impact.
    But we know that NASA faces aging technologies and an aging 
workforce. And we're interested in where are you going to get 
what you need when you need it, but we're concerned that 
shifting sands could have a negative impact on morale.
    These are things for additional conversations, but I think 
that we've covered the core issues today.

                     ADDITIONAL COMMITTEE QUESTIONS

    Mr. O'Keefe. If I could very quickly, Senator.
    I want to thank you and the committee and the Senate for 
enacting the Workforce Flexibility Act just here a month ago 
for NASA. That's a big advance. S. 610 is going to help us to 
achieve and conquer the kinds of challenges that you've talked 
about. That's a very, very significant move forward and we 
appreciate the support of that.
    [The following questions were not asked at the hearing, but 
were submitted to the Administration for response subsequent to 
the hearing:]

           Questions Submitted by Senator Christopher S. Bond

        IMPLICATIONS FOR TERMINATING THE SHUTTLE PROGRAM IN 2010

    Question. At this time, the shuttle is the only U.S. vehicle 
capable of taking astronauts to and from space. Under the new vision 
for NASA, the shuttle would be retired when space station construction 
is completed in 2010. A new Crew Exploration Vehicle would be developed 
and fully operational for Earth orbital missions by 2014.
    What would be the consequences of a 4-year, and possibly longer, 
hiatus in U.S.-flown human spaceflights?
    Answer. NASA expects to utilize the ISS through at least 2016. 
Following retirement of the Shuttle upon completion of ISS assembly, 
NASA envisions using a combination of vehicles from Russia, the 
European Space Agency, Japan, and potential commercial initiatives to 
deliver crew and cargo to the ISS. Currently, NASA anticipates that 
using these vehicles instead of the Shuttle will limit cargo return and 
may restrict the size of certain logistical re-supply elements. The ISS 
operators and users are currently evaluating each of these limitations 
in order to ensure ISS productivity is maintained during this U.S. 
transition period in space transportation. The retirement of the 
Shuttle fleet would allow the Shuttle's resources to be redirected to 
support other human spaceflight and exploration activities necessary to 
achieve the goals of the Vision for Space Exploration.
    Question. How much would Russia charge for taking U.S. astronauts 
to and from ISS, and how would NASA pay for such services given that 
the Iran Nonproliferation Act prohibits NASA from paying Russia for 
ISS-related activities?
    Answer. We have not discussed this issue with Russia. We are aware 
of the provisions of the Iran Nonproliferation Act, and the 
administration will work with Congress to resolve issues related to ISS 
support, as necessary.
    Question. Would China be considered as an alternative now that it 
can launch people into space?
    Answer. The new Vision for Space Exploration directs NASA to 
consider foreign and commercial options for servicing the ISS. No 
options have been selected or ruled out for either crew transfer or 
cargo at this time.
    Question. What upgrades to the shuttle should NASA continue to 
pursue? What new launch vehicle, or vehicles, may need to be developed?
    Answer. NASA will continue to pursue Space Shuttle upgrades to 
systems mitigate risks and assure safe flight as we complete assembly 
of the International Space Station. The Space Shuttle Service Life 
Extension Program (SLEP) is the current vehicle for determining these 
upgrades, and its focus will transition to safety and reliability 
initiatives. The SLEP team is currently working to review and 
prioritize upgrades in light of the Vision for Space Exploration. NASA 
will look to the Office of Exploration Systems to determine new launch 
vehicles requirements to support the Vision for Space Exploration.

               WORKFORCE INVOLVED WITH HUMAN SPACE FLIGHT

    Question. What will happen to this skilled workforce as the shuttle 
program ends?
    Answer. NASA's contractors have the requirement to hire 
appropriately skilled personnel or train them to meet all the 
conditions of the contracts. They have been hiring or training to meet 
and maintain our skill level requirements, and this trend is 
anticipated to continue. As the Space Shuttle program nears retirement, 
we fully anticipate that aerospace technician employment opportunities 
will continue after completion of ISS assembly, with NASA, driven in 
part by the Vision for Space Exploration and the continuing need to 
support the International Space Station.
    Question. How can we guarantee that as workers begin to leave an 
ending program for other activities that the final flights will have 
the same amount of associated risk?
    Answer. NASA understands the challenges of maintaining an 
enthusiastic workforce as the Space Shuttle program phases down. We are 
beginning to develop a plan to ensure that the skills required to 
maintain a safe and reliable fleet are in place until the last Space 
Shuttle flight has completed its mission.
    Question. How will NASA retain the skills necessary for human space 
flight while the country's space program is taking a flight hiatus for 
at least 4 years?
    Answer. The retirement of the Space Shuttle is not the end of the 
space program but rather the beginning of an opportunity to transition 
a highly skilled workforce into programs requiring their skills and 
challenging their creativity. We believe, at the appropriate time, 
these workers who have Shuttle experience will be able to continue work 
with NASA on new programs requiring their unique skills.

                    FUNDING OF ISS RESUPPLY MISSIONS

    Question. What is the status of discussions with the other 
International Space Station partners regarding how to fund Russian 
production of a sufficient number of Progress cargo spacecraft to keep 
the space station operating while the shuttle fleet is grounded?
    Answer. To date, FKA has continued to fully support ISS operations 
based on additional Russian government funding. On November 13, 2003, 
Russian Prime Minister Kasyanov authorized a 1.5 billion ruble 
(approximately $50 million) budget supplement for FKA to meet ISS 
operational needs. In the context of the overall Russian Federal Space 
Budget for 2003, this supplemental was a 19 percent increase in 
spending authority. The 2004 Russian Federal Space Budget included a 20 
percent increase (over the supplemented 2003 figure) to the ISS budget 
line.
    Question. Will the other partners be able to provide the needed 
funding, or do you expect that you will need to ask for a waiver from 
or amendment to the Iran Nonproliferation Act so that NASA can provide 
some of that funding?
    Answer. We are discussing all aspects of the future configuration 
and support of the ISS with the partners at this time. No decisions 
have been reached.

                     TIMELINE FOR ENHANCE USE LEASE

    Question. In 2003, we provided NASA with the ability to enter into 
EULs. The EUL authority was an issue that NASA had wanted for all of 
the centers but was limited to two centers in order to see how NASA 
would utilize this authority. I am interested in the progress of the 
selection process, and how this new authority has been utilized.
    Can you please give me an update on the status of this program, and 
any insight as to the infrastructure needs at NASA centers that have 
become known because of the selection process?
    Answer. Public Law 108-7, the fiscal year 2003 Omnibus 
Appropriations Bill, authorized NASA to conduct a demonstration program 
for Enhanced Use Leasing (EUL). Congress limited the demonstration 
program to two (2) NASA Centers. NASA conducted a formal process to 
select the 2 demonstration sites. All NASA Centers were requested to 
submit detailed proposals to include a description of the purpose and 
marketing potential of the property(ies), a description of the lease(s) 
including the proposed term(s), and a description of the value to 
Center. The selection criteria were also sent to all NASA Centers, and 
included overall benefit to Center, overall value of the business plan 
to NASA, opportunity for success, including the readiness of the EUL 
projects, and marketability of the property(ies).
    Six NASA Centers submitted proposals. All six proposals exhibited 
significant merit and benefit to NASA. The proposals were evaluated and 
ranked by a panel consisting of NASA Headquarters planning and real 
estate specialists and a real estate specialist from the General 
Services Administration. The rankings were reviewed and approved by the 
NASA Headquarters Institutional Committee and Executive Council. 
Through this process, the Kennedy Space Center (KSC) and the Ames 
Research Center (ARC) were selected as the EUL demonstration sites in 
July 2003.
    In the period since the selection of the two demonstration sites, 
NASA Headquarters has worked closely with KSC and ARC to develop EULs. 
This is a new initiative for NASA, and we have proceeded cautiously and 
meticulously.
    As of April 2004, ARC has executed 17 small EUL agreements for an 
approximate total of $300,000 anticipated annual revenue, which 
includes monthly rent and common service charges for support services 
provided by the Center. These leases are short-term (1-5 years). They 
include a lease of the existing NASA fuel storage and distribution 
system, a lease of building space for research and development of 
commercially viable fuel cells, leases of historic buildings for 
education and research, and leases of office and laboratory space for 
nanotechnology research. KSC has developed an out lease of Center land 
for use by a telephone service provider (Verizon) to place a trailer 
and a cell tower to enhance Verizon cellular telephone service across 
the Center. This KSC lease has been approved but has not yet been 
signed.
    A summary of planned activities for ARC and KSC follows:
    ARC's NASA Research Park (NRP) is envisioned to be a privately-
funded initiative to develop available under-utilized land at ARC into 
an active research park with tenants performing space- and aeronautics-
related study and research. ARC completed a Final Programmatic 
Environmental Impact Statement and Record of Decision in November 2002 
including the NASA Research Park. This was finalized before EUL was 
authorized for NASA. The NRP will be executed through an EUL land-use 
agreement. Several leases have been approved and entered into for 
tenants in the first phase of the NRP. These leases are for existing 
facilities that the tenants will use in their own research and 
development activities. ARC also has a wide variety of future proposals 
under consideration for implementation in fiscal year 2004, including:
  --lease of an existing historic building with Clark University;
  --leases of existing under-utilized office and laboratory space for 
        the Nanostellar Corporation, and the Northern California 
        Nanotechnology Initiative; and,
  --potential long-term lease of land and existing buildings for a 
        Training and Conference Center; Requests for Qualifications for 
        prospective lessors was released in April 2004; response are 
        due in May 2004.
    KSC is working on the development of the International Space 
Research Park (ISRP). The ISRP will be developed by the Florida Space 
Authority (FSA) through an EUL agreement and Space Act agreement. The 
ISRP will develop approximately 400 acres of under-utilized land on 
KSC. The term of the EUL agreement is envisioned to be 50 years, with a 
25-year option. The early stages of this effort have been focused on 
developing appropriate language for the operation of the EUL and 
assuring NASA receives proper fair-market consideration. KSC has also 
prepared a Draft Environmental Impact Statement (EIS), a key and 
necessary element for establishing the research park. The Draft KSC EIS 
was released for public review and comment through March 2004. NASA 
anticipates release of the Final EIS and Record of Decision later this 
spring. The EUL agreement is anticipated to be executed by December 
2004.
    KSC also anticipates a wide variety of future proposals, as 
existing leases for land at KSC expire and are converted into EUL 
agreements. These include: leases to news and wire services for areas 
used to report on launches; and, leases of Center land for use by a 
telephone and communication service providers.

                             WEBB TELESCOPE

    Question. The follow on to the Hubble Telescope is the James Webb 
Space Telescope. While this telescope it is not a true replacement of 
Hubble, it will continue the mission of looking back in time to some of 
the early events in the creation of the universe. This is the number 
one priority in this decade for the astronomy and astrophysics 
community.
    What, if any problems are being encountered with the James Webb 
Space Telescope project that could affect its proposed launch date or 
achieving its scientific goals?
    Answer. Currently, JWST is in the preliminary design phase 
(Formulation) and it faces no significant technical or budgetary 
problems. Progress toward an August 2011 launch is on-track and 
proceeding according to plan. The program has passed independent 
reviews of its conceptual design, its top-level requirements and most 
of its lower-level requirements. While JWST is a technically 
challenging endeavor, there have been no compromises in its baselined 
scientific performance or launch date.

                          ALDRIDGE COMMISSION

    Question. As I mentioned in my statement, the President created the 
Commission on Implementation of United States Space Exploration Policy, 
or Aldridge Commission, to provide recommendations to the President on 
implementation. This commission will provide these recommendations in 
June of this year, yet NASA appears to be already making their plans 
ahead of the recommendations.
    Once the recommendations are made, how will NASA address the 
recommendations if they contradict what NASA is asking for in fiscal 
year 2005?
    Answer. NASA submitted its fiscal year 2005 Budget request earlier 
this year and took into account the President's vision in order to 
begin implementation as quickly as possible. There is sufficient 
flexibility in our planning to accommodate the advice of the Aldridge 
Commission, which we recently received.
    Question. To what extent has there been communication between the 
Commission and NASA about what recommendations can be expected?
    Answer. The Commission worked independently. NASA provided 
administrative support and responded to the Commission's requests for 
information and briefings. Some commissioners conducted fact-finding 
visits to NASA centers. The Commission did not provide recommendations 
to NASA: their recommendations were transmitted to the President as 
part of their report on June 16, 2004.

                            HUBBLE TELESCOPE

    Question. A short time after the announcement of the President's 
exploration vision, NASA indicated that it would be canceling any 
further shuttle missions to Hubble. NASA has cited safety concerns as 
the primary reason for having an early end to the life of a truly 
amazing instrument.
    In making the decision to cancel the SM4 servicing mission, did 
NASA perform a risk analysis in which the risks were quantified and 
evaluated rigorously? What tools were used to assess the risk involved, 
what were the results, and what alternatives were discussed? Aside from 
the plans for deorbiting Hubble, what are the plans for the fiscal year 
2004 funding that would have been used for the SM4 servicing mission?
    Answer. The decision to cancel the Hubble SM4 servicing mission was 
made after evaluating the requirements that came from safety 
recommendations of the Columbia Accident Investigation Board (CAIB) 
report. NASA rigorously examined the on orbit inspection techniques and 
repair methods that are required to ensure adequate mission safety. 
NASA determined that safe inspection techniques and repair methods 
could be developed for use on the Shuttle while docked at the 
International Space Station (ISS) because of the safe haven 
capabilities of the ISS and because the Space Station Remote 
Manipulator System (SSRMS) would be available to assist with inspection 
and repairs.
    For the scenario of the Shuttle in a non-Station orbit (like the 
HST servicing mission), NASA determined that it would have to develop 
unique, single use technologies and tools in order to be able to 
accomplish the needed inspection techniques and repair methods. It is 
unlikely the new technology needed to service Hubble would be ready 
before critical Hubble systems fail (Gyroscopes will probably fail by 
late 2006; the battery is expected to fall below needed capacity in 
about 2008).
    NASA would also have to dedicate two Shuttles for a servicing 
mission to comply with safety recommendations of the CAIB for a non-
Station mission. NASA would need a second Shuttle positioned for 
launch, which would require an unprecedented double workload for ground 
crews. The rescue, if required, would involve a Shuttle-to-Shuttle crew 
transfer with unproven techniques. All this would have to be done under 
extreme schedule pressure, because Shuttle life support, food and water 
are limited. On a non-Station autonomous mission, the crew would only 
have 2 to 4 weeks before the rescue Shuttle would have to arrive.
    NASA issued a formal ``Request for Information'' (RFI) on February 
20, 2004, to solicit from industry academia or anyone who may have 
useful information bearing on how to extend the useful scientific 
lifetime of the Hubble. NASA received 26 responses, which are being 
evaluated at this time. A plan will be developed when a decision is 
made as to the approach the Agency will take to prolong the life of 
Hubble.
    NASA has also formally requested a study by the National Academy of 
Sciences to ensure we have fully considered all reasonable alternatives 
to finding the best way to extend the lifetime of the Hubble Space 
Telescope.

                       SHUTTLE RETIREMENT AT 2010

    Question. In the fall of 2002, NASA announced plans to continue 
operating the space shuttle until 2015, and perhaps to 2020 or beyond. 
Now the plan is to retire the shuttle fleet by 2010. A key component to 
making the President's vision affordable in the long term is the 
avoidance of a recertification of the fleet in 2010, which is called 
for in the CAIB report.
    If the shuttle must be flown past 2010, due to possible schedule 
slips beyond those that have already happened this year, what would be 
the cost of recertification?
    Answer. NASA is currently reassessing the ISS assembly sequence to 
ensure that the Shuttle can be safely retired following assembly of the 
International Space Station, planned for the end of the decade. To 
prepare for the contingency that the Shuttle may need to operate beyond 
2010, NASA is assessing the need to recertify Space Shuttle systems, 
subsystems, or components consistent with the Vision for Space 
Exploration and in line with the recommendations of the Columbia 
Accident Investigation Board. The technical work required to determine 
when and if recertification would be needed will continue into this 
summer. Once the technical definition of the recertification tasks is 
completed, cost estimates will be developed on the items we need to 
recertify and made available for discussion.
    Question. If the Moon/Mars goal is not adopted, or delayed 
significantly, what will the future be for the shuttle?
    Answer. NASA has adopted the goal and objectives established in the 
Vision for Space Exploration, and is transforming itself to meet those 
objectives, and the Agency has revised its program accordingly. 
Consistent with the Vision for Space Exploration, NASA intends to phase 
out Shuttle operations following the completion of the International 
Space Station, planned for the end of the decade.

                BIG PROJECTS CROWDING OUT OTHER RESEARCH

    Question. Both Project Prometheus and implementing the new NASA 
vision are going to consume a large amount of funds in the next 5 to 10 
years. By some estimates, Project Prometheus could cost $3 billion over 
5 years, and the vision is causing a large redirection of funds for 
years to come.
    With large known program costs, and other costs currently 
uncertain, how is NASA going to fund the many opportunities that may 
present themselves in the future that fall outside the vision?
    Answer. NASA will continue to invest in priorities such as 
Aeronautics and Earth Science that may contribute to, but are not 
completely focused on, the vision for exploration. There are always 
many more opportunities than funding available, and NASA will continue 
to assess potential investments against priorities in the exploration 
vision and other important areas of our vision and mission. There is a 
natural turnover in projects as they are completed, and NASA will also 
continue to assess priorities for how to make new investments that will 
best achieve our vision and mission.
    Question. Is NASA going to be unable to continue the commitment to 
current activities in order to meet the new goals?
    Answer. No. NASA will continue to invest in current activities, 
including priorities in Aeronautics and Earth Science. We will achieve 
the goals of the exploration vision with increased funding at the 
Agency level ($1 billion over 5 years above what was planned in the 
fiscal year 2004 budget request), as well as through a realignment of 
many ongoing activities that do not support the vision.

                       FAILED FINANCIAL STATEMENT

    Question. NASA has finally achieved an integrated financial 
management system, yet NASA did not receive a clean audit on its 
financial statement. Instead, the auditors deemed the books have a 
reportable condition when faced with being handed records from two 
different financial systems for last year.
    What is the status of addressing this situation and when will we be 
able to see progress towards correcting it?
    Answer. For fiscal year 2004, NASA is operating an Agency-wide, 
single integrated core financial management system. However, throughout 
most of fiscal year 2003, NASA was implementing, in 4 separate phases, 
the new system that replaced 10 disparate accounting systems in 
operation at our Centers for the past two decades. This conversion 
effort created some complex accounting issues for fiscal year 2003, 
which significantly impacted the timeliness and quality of the 
information required in preparing NASA's interim and year-end financial 
statements.
    NASA had anticipated that fiscal year 2003, being a conversion year 
to this new Agency-wide accounting system, was going to be an 
especially challenging time for its external financial reporting 
activities. Eight of 10 Centers went through this conversion process 
during the fiscal year 2003 and, accordingly, required NASA to use 
``blended'' data from each Center's legacy accounting system and the 
new core financial system to ultimately prepare our consolidated fiscal 
year 2003 financial statements.
    NASA expects improvements this fiscal year. There are no more NASA 
Center legacy systems in operation, and all financial data will be 
emanating from the one single Agency-wide core financial system. That 
said, there are numerous challenges ahead both in addressing the issues 
raised in the fiscal year 2003 audit as well as improving the IFM 
system based on GAO and internal working group recommendations.

                           EDUCATION PROGRAMS

    Question. It is my understanding that the NASA website has had 
nearly 8 million hits since the landing of Spirit. Ed Weiler stated 
yesterday that 20 percent of those hits are coming from children and 
young adults in the K-12 range.
    What is being done to make sure K-12, and even college age 
students, take this interest and keep the excitement going to become 
the next engineers and scientists that NASA and the country will 
continue to have a demand for in the future?
    Answer. Background.--NASA is confronted with the convergence of 
three trends that put future U.S. advancements in science, aeronautics, 
and space technology at risk: (1) reduction in the number of science 
and engineering graduates; (2) increased competition from the private 
sector and academia for technical expertise; and, (3) retirement of 
approximately 25 percent of the current science and engineering 
workforce within 5 years.
  --NASA is implementing a 5-year Corporate Recruitment Initiative, a 
        collaborative effort among the offices of Education, Equal 
        Opportunity Programs, and Human Resources, to focus on the 
        recruitment of, and outreach to, young people from diverse 
        backgrounds who are skilled in high-demand competencies 
        required by NASA, including those necessary for implementation 
        of the long-term Vision for Space Exploration.
  --All Education Enterprise initiatives and programs are consistent 
        with NASA's Agency-wide approach to human capital management, 
        and are instrumental in attracting and maintaining a workforce 
        representative of the Nation's diversity to enhance NASA's 
        current and future competencies.
  --NASA's commitment to workforce development and future human capital 
        needs is demonstrated by four Pathfinder initiatives:
      Educator Astronaut Program.--Provides opportunities for 
        outstanding teachers to become permanent members of the 
        Astronaut Corps. Using the educational expertise of Educator 
        Astronauts and innovative technology of our Edspace website, 
        Earth Crew members from K-12 will be inspired to greater 
        Science, Technology, Education, and Mathematics (STEM) 
        achievement and will be encouraged to pursue STEM careers. An 
        intended outcome of this program is raising the esteem of 
        teachers in the eyes of the public. (Fiscal year 2005 budget 
        request: $2.1 million)
      NASA Explorer School (NES) Program.--Establishes a 3-year 
        partnership between NASA and school teams serving grades 4-9, 
        consisting of teachers and education administrators from 
        diverse communities across the country. Focusing on underserved 
        populations, NES engages educators, students, and families in 
        sustained involvement with NASA's research, discoveries, and 
        missions to promote science, mathematics, and technology 
        learning and career explorations. (Fiscal year 2005 budget 
        request: $13.7 million)
      NASA Explorer Institutes Program.--Broadens NASA's reach to 
        students, their families, and the general public for STEM 
        learning outside of formal classroom environments through 
        media, exhibits, and community-based programming. Provides 
        instructional materials and resources for use by the informal 
        education community (including science centers, museums, 
        planetariums, libraries, parks, aquaria, nature centers, 
        botanical gardens, and community-based organizations) and 
        professional development opportunities for informal education 
        professionals. (Fiscal year 2005 budget request: $2.1 million)
      Science and Technology Scholarship Program.--Provides college 
        tuition to highly qualified students who, in return, will 
        commit to work at NASA. Established by the NASA Flexibility Act 
        of 2004 (Public Law 108-201). (Fiscal year 2005 budget request: 
        $9.5 million)
  --While the Pathfinder Initiatives are directly related to workforce 
        recruitment and the new Vision for Space Exploration, all 
        Education programs support the strategic objectives of 
        increasing the number of students pursuing science, technology, 
        engineering, and mathematics (STEM) disciplines.

                                         BUDGET (FISCAL YEAR 2004-2009)
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                            Fiscal    Fiscal   Fiscal   Fiscal   Fiscal   Fiscal
                     Budget Authority                        Year      Year     Year     Year     Year     Year
                                                           2004 \1\    2005     2006     2007     2008     2009
----------------------------------------------------------------------------------------------------------------
Education Programs.......................................     230.4    168.5    169.4    170.6    169.6    170.3
Education................................................     138.6     77.7     77.9     78.8     78.3     78.4
    Base Program.........................................      77.7     77.7     77.9     78.8     78.3     78.4
    Congressionally Directed.............................      60.9  .......  .......  .......  .......  .......
Minority University......................................      91.8     90.8     91.5     91.8     91.3     91.9
    Base Program.........................................      90.8     90.8     91.5     91.8     91.3     91.9
    Congressionally Directed.............................       1.0  .......  .......  .......  .......  .......
----------------------------------------------------------------------------------------------------------------
\1\ Represents budget as presented in NASA's Initial Fiscal Year 2004 Operating Plan.

    Additional Background.--Pathfinder Initiatives highlights for 
fiscal year 2005 budget:
  --Educator Astronaut Program.--Earth Crew allows the development of 
        ongoing relationships between NASA and adult-led groups of 
        students (educator/class, parent/family, etc.) for the purpose 
        of exposing students to unique NASA content, careers related to 
        NASA, and the people and mission of NASA. As of March 25, 2004, 
        the total Earth Crew Membership was 92,487. Membership will 
        likely continue to increase, especially after the formal 
        announcement of the newly selected 2004 Educator Astronauts, 
        scheduled for May 6, 2004.
  --NASA Explorer School Program.--School needs that will be addressed 
        by this program include communication, professional 
        development, partnerships, web-based education resources, and 
        curriculum integration tools. Fifty 2004 NASA Explorer Schools 
        were selected recently. In fiscal year 2005, an additional 50 
        schools will be added, bringing the total number of partner 
        schools to 150.
  --NASA Explorer Institutes Program.--Focus group conferences will be 
        held to identify the needs of the informal education community. 
        Plans for a national program of Explorer Institutes for all 
        ten-field Centers will be completed, with 4 institutes being 
        operational in fiscal year 2005.
  --Science and Technology Scholarship Program.--The first cohort of 
        undergraduate students, jointly selected by Agency personnel 
        and university faculty, and chosen for service in NASA, will be 
        selected.

                      COST OF THE MOON/MARS VISION

    Question. According to your documents, current budget projections 
assume it would cost $64 billion to return humans to the Moon by 2020, 
not including the cost of robotic missions. The $64 billion consists of 
$24 billion to build and operate the Crew Exploration Vehicle from 
fiscal year 2004-2020, plus $40 billion for fiscal year 2011-2020 to 
build and operate the lunar lander. This is a significant investment 
and only captures the lunar portion of the vision. There is also the 
build up of additional missions to Mars.
    My question is, how much is the current estimate for implementing 
all aspects of the Moon/Mars vision in fiscal year 2005, and from 2005 
through 2020?
    Answer. The President's fiscal year 2005 budget request includes 
funding for all aspects of the vision during this time period, 
including exploration of the Moon, Mars, outer moons and beyond 
including the search for extrasolar planets that might harbor life. 
NASA is still developing architectures for human and robotic 
exploration of the Moon and Mars. Estimates that were used in the 
budget represent a bounding estimate based on experience and actual 
costs from relevant elements of the Apollo program. The estimates do 
not reflect architecture studies, design analysis, new technologies, 
and innovative approaches yet to be undertaken. They also do not 
reflect that the exploration vision, unlike Apollo, views the lunar 
landing not as an end in itself, but as one step in a sustained human 
and robotic program to explore the solar system and beyond. The lunar 
exploration will reduce the risks and prepare for Mars exploration, and 
many of capabilities developed for lunar exploration may be used for 
Mars exploration as well.
    Question. To what extent can robotic spacecraft accomplish these 
exploration goals instead of humans, at less cost and risk to human 
life?
    Answer. NASA has undertaken a recent analysis of the benefits and 
cost associated with human space flight, and this response reflects 
some of the findings of that analysis. Neither robotics nor humans 
alone could accomplish these exploration goals. Robots cannot 
discover--they are simply a smart set of sensors and effectors that act 
as surrogates for and inform human presence elsewhere. Humans cannot 
explore alone either--the space environment does not allow humans to 
operate without robotic support--this is often true today on Earth as 
well. In practice, humans and robots act symbiotically to complete 
tasks.
    Human presence for in situ exploration is both high value and high 
cost. Humans missions will occur after extensive characterization of 
the environment and areas of high interest are identified with the 
assistance of robots. Human presence will lead to huge increases in the 
speed and quality of the measurements taken, and creates unparalleled 
ability to observe and make discoveries through the unique capabilities 
of the human brain. The result is dramatic increases in the pace of 
discovery and reliability of scientific returns. This comparative 
advantage was aptly demonstrated by Apollo where human presence 
quickened the pace of discovery by producing a large quantify of high 
quality material for analysis that led to dramatic discoveries about 
the Moon.
    Finally, as the President stated on January 14, ``human beings are 
heading into the cosmos.'' One of the four primary objectives of the 
new space exploration vision is ``to extend human presence across the 
solar system.'' This endeavor, intended to improve our lives and lift 
our national spirit, cannot be accomplished using only robots.

             INTERNATIONAL PARTNERS IN THE MOON/MARS VISION

    Question. In the President's policy directive, it states that NASA 
will ``pursue opportunities for international participation to support 
U.S. space exploration goals.'' We currently have an international 
partnership with the space station, and our own participation is taking 
a dramatic change, even before the construction is even completed.
    Will other countries be willing to participate if the United States 
does not live up to its obligations to the space station program, and 
if the United States insists on directing how the Moon/Mars program is 
to be conducted?
    Answer. The President directed NASA to fulfill our commitments to 
our partners on the ISS, and we plan to do so. Initial interest by 
other countries in the vision has been positive, and we expect there 
will be many opportunities for international cooperation over the 
course of implementation.

                        SPACE STATION CREW/CARGO

    Question. In your proposed budget, there is $140 million proposed 
for space station crew and cargo services. This funding will be for 
launch, delivery, and return services for cargo, and the purchase of 
human-rated launch and return capabilities.
    Why is this money needed at this time, when the anticipated need 
for such services will not be until 2010? Is this an indication that 
this will be a recurring cost for the next 5 years?
    Answer. NASA will retire the Space Shuttle after completing 
assembly of the International Space Station, planned for the end of 
this decade. Even prior to retiring the Shuttle, there is a need for 
additional cargo capability in order to achieve fuller utilization of 
the Space Station for conducting research. Offloading some ISS cargo 
transfer tasks onto commercial services may be key to completing the 
ISS by the end of the decade, an important step in enabling the New 
Vision for Exploration. Hence, funding to begin to acquire cargo and 
crew services is requested in fiscal year 2005. NASA is beginning to 
discuss options for meeting cargo/crew delivery and return requirements 
in both the near term and post-Shuttle. As early as fiscal year 2006, 
NASA anticipates a need to augment Shuttle and partner-provided 
services to improve utilization by purchasing cargo/crew services 
commercially using a full and open competitive acquisition process. 
Currently, no commercial capability exists that could meet the 
requirements but there appears to be commercial interest. NASA has no 
plans to fund the development of this capability and plans to acquire 
services. However, technology risk reduction demonstrations are under 
consideration to reduce the risk of development for any potential 
service provider. The phased funding plan for ISS Cargo/Crew Services 
is shown in the following table.

----------------------------------------------------------------------------------------------------------------
                                    Fiscal Year     Fiscal Year     Fiscal Year     Fiscal Year     Fiscal Year
    Fiscal Year 2005 Request           2005            2006            2007            2008            2009
----------------------------------------------------------------------------------------------------------------
ISS Cargo/Crew Services.........    $140,000,000    $160,000,000    $160,000,000    $160,000,000    $500,000,000
----------------------------------------------------------------------------------------------------------------

    Question. Whom do you expect to provide these services? As you well 
know, it is currently against the law for us to provide funding to the 
Russians for vehicles that are doing this type of work for us now.
    Answer. NASA is refining projected requirements for ISS cargo and 
crew delivery and return consistent with the Vision for Space 
Exploration and existing law and policy. NASA is developing an 
integrated ISS strategy that considers the full range of domestic and 
international partner transportation options. These options include: 
U.S. commercial capability; ISS International Partner assets, such as 
the European Automated Transfer Vehicle, Japanese Transfer Vehicle, and 
the Russian Progress and Soyuz spacecraft; and, Transition to 
capability presently under definition from the NASA Constellation 
Program, when available, after the retirement of the Space Shuttle in 
2010.
    NASA recognizes there are unique challenges associated with each of 
these space access options and is committed to assuring safe, reliable 
and affordable access and operation to the International Space Station.

             ARBITRARY DATE OF 2010 FOR SHUTTLE RETIREMENT

    Question. During the hearing, it was contended that the 2010 
recertification date mentioned in the CAIB report might have been an 
arbitrary date picked by the CAIB.
    If NASA is going to comply with the CAIB report 100 percent, as has 
been stated numerous times before this subcommittee, how can a specific 
date within the report for recertification be determined to be 
arbitrary?
    Answer. The Space Shuttle Orbiters were designed with an 
operational life of 100 flights. Given that no Orbiter in the current 
fleet has been flown more than 30 missions, the Shuttle is potentially 
capable of flying until 2020 or beyond. Mid-life certification was 
projected for approximately 2010. This target date became the logical 
point for completing recertification. Since the Space Shuttle fleet 
will now retire after completion of assembly of the International Space 
Station (ISS), currently planned for the end of the decade, NASA is 
appropriately readdressing recertification norms.
    The CAIB report was written when the Space Shuttle was expected to 
play a major role in ISS logistics, science and crew exchange following 
full assembly. Given that the Vision for Space Exploration calls for an 
end to the Space Shuttle program at the completion of ISS assembly, 
planned for the end of this decade, the purpose and need for 
recertification is less clear. The Shuttle Service Life Extension 
Program (SLEP) has been tasked to address this CAIB report 
recommendation, and reviews are currently in progress.
    Question. What documentation can you provide that indicates that 
such a date was, in fact, arbitrarily made?
    Answer. Given that the 2010 date for recertification reflects the 
projected mid-life certification date, the Orbiters' design 
certification documentation support the CAIB's decision. However, since 
the subsequent Vision for Space Exploration calls for the Space Shuttle 
to retire in this timeframe, recertification must be reevaluated.

                  HEAVY LIFT CAPABILITY BEYOND SHUTTLE

    Question. Assuming that the shuttle is retired in 2010, there will 
be no heavy lift capability available for NASA. The military has chosen 
to end Titan program with the final launch in early 2005, leaving 
virtually no options for the necessary cargo transport services that 
will be needed for the Moon/Mars vision.
    What is NASA doing to ensure that reliable heavy lift capability is 
available to NASA once the shuttle is retired?
    Answer. Consistent with the Vision for Space Exploration, NASA 
seeks to safely return the Space Shuttle to flight, currently planned 
for March 2005. Over the remainder of the decade, the Space Shuttle 
will be used to complete assembly of the International Space Station 
(ISS). NASA utilizes a mixed fleet launch strategy that takes advantage 
of both domestic and International Partner launch capabilities across a 
full spectrum of performance ranges.
    NASA is developing a Shuttle retirement strategy that will assure 
space access for required U.S. support to the ISS and future Space 
Exploration requirements. Ongoing NASA assessments consider use of both 
domestic Evolved Expendable Launch Vehicle (EELV) capability to meet 
higher performance requirements as well as International Partner launch 
capability. The first EELV launch of the Boeing Delta IV-Heavy vehicle 
configuration, with a similar performance capability as the Space 
Shuttle and soon-to-retire Titan IV ELV, is planned for this summer.
    In parallel with the architecture planning and requirements 
definition for space exploration, NASA has initiated a number of 
studies to evaluate future heavy lift demand and potential domestic 
capabilities beyond that of current systems, which could meet yet-to-be 
defined requirements. As the architecture planning, requirements 
definition, and study results mature, NASA will continue to evaluate 
and plan for all its launch requirements, including heavy lift, in 
coordination with the Department of Defense to assess requirements in 
this class from a National perspective.
    Question. Will NASA need to develop a new heavy lift capability 
that is not yet a part of the Moon/Mars plan, and at what cost?
    Answer. As stated above, NASA has initiated a number of studies to 
evaluate future heavy lift demand and potential domestic capabilities 
beyond that of current systems, which could meet yet-to-be defined 
requirements. As the architecture planning, requirements definition, 
and study results mature, NASA will continue to evaluate and plan for 
all its launch requirements, including heavy lift.

                          RUSSIAN SOYUZ SAFETY

    Question. NASA recently announced a further slip of the shuttle's 
return to flight until March or April of 2005. NASA should be commended 
in taking its time to ensure that all the necessary CAIB 
recommendations are implemented properly. However, in the meantime, we 
are relying on Soyuz to deliver and return crews to and from the ISS. 
This begs the question of whether the Soyuz meet the same expectations 
of safety that we now expect of our own vehicles after the tragic loss 
of Columbia.
    Can you explain what steps NASA has taken to ensure that the Soyuz 
vehicles meet the basic safety requirements that are embodied in the 
CAIB recommendations?
    Answer. NASA has significant interaction with the Russian Federal 
Space Agency (FKA) and the vehicle manufacturer (RSC-Energia) regarding 
safety of the Soyuz vehicles. On the basis of this interaction and the 
historical record of Soyuz and Soyuz-derived vehicle performance, NASA 
is confident that the Soyuz is among the safest spacecraft ever flown.
    The continued use of the expendable Soyuz spacecraft does not 
present a ``new'' certification requirement. Each vehicle is operated 
within the design, certification and experience of our Russian 
partners. Under the provisions of the Memorandum of Understanding 
between NASA and Rosaviakosmos (now the Russian FKA) concerning 
cooperation on the International Space Station (Article 10.2), FKA is 
responsible for meeting or exceeding the overall Space Station safety 
and mission assurance requirements and plans established by NASA and 
the Partnership. (``In support of NASA's overall responsibilities to 
assure safety and mission assurance, FKA will be responsible for 
certifying that the Russian Segment and the FKA-provided elements, 
including cargo, are safe and ready for operation using jointly agreed 
documentation and processes.'') The Soyuz has been certified under 
these conditions. Under the provisions of the MOU, NASA is not 
responsible for certifying Russian vehicles for flight and FKA is not 
responsible for certifying NASA vehicles for flight.
    In addition, each Soyuz mission undergoes a number of joint Russian 
and U.S. expert reviews. Prior to each mission, the U.S.-Russian 
Stafford-Anfimov Joint Commission conducts an in-depth joint assessment 
of the operational readiness of the mission. The resulting report is 
one of the inputs to the detailed NASA technical reviews that culminate 
in a Flight Readiness Review for each mission.
    The certification under the MOU, our technical and safety history 
with Soyuz vehicles, and current processes for joint Station operations 
combine to ensure the safety of future use of Soyuz.
                                 ______
                                 
              Questions Submitted by Senator Conrad Burns

    EXPERIMENTAL PROGRAM TO STIMULATE COMPETITIVE RESEARCH (EPSCOR)

    Question. The NASA Experimental Program to Stimulate Competitive 
Research (EPSCoR) program was authorized in 1993 to help develop 
academic research in space science, aerospace technology and aerospace-
related research in 19 States and Puerto Rico that have historically 
been less successful in obtaining NASA research funding. NASA EPSCoR 
has been extremely successful in my State of Montana. Montana and the 
other EPSCoR States are currently in the fourth year of 5-year research 
grants from NASA. Since fiscal year 1999, some $10 million has been 
available for this program annually. However, the fiscal year 2005 
budget request is $4.6 million. Without additional funding, Montana 
will not be able to complete its 5-year research program. Can you help 
us find the funding for EPSCoR, which has been so helpful to Montana?
    Answer. Awards under the current NASA EPSCoR program were granted 
in 2001 for a 3-year period with an option for a 2-year extension based 
on a competitive review of progress made. Review of those continuation 
requests will be conducted later this year. The most competitive 
programs that demonstrate successful progress will be granted 
continuation awards in accordance with the available budget.
    Question. Since fiscal year 1999, Congress had funded the NASA 
EPSCoR program at $10 million annually but each year the budget request 
seems to revert to $4.6 million. This is an on-going, authorized 
program with important results in the participating States. Why do we 
see this constant push back?
    Answer. NASA has requested funding for the program in the 
President's budget request every fiscal year since the NASA EPSCoR 
legislation was authorized and considers the program a vital part of 
the Agency's education portfolio. The NASA budget request for EPSCoR is 
at a level that reflects the importance of the EPSCoR program balanced 
against other program priorities.
    NASA is committed to the EPSCoR program. The program is a strong 
component of the Office of Education workforce development and research 
capacity building strategy. The NASA EPSCoR Program provides seed 
funding that enables eligible States to develop an academic research 
enterprise directed toward long-term, self-sustaining, nationally 
competitive capabilities in space and Earth science and applications, 
aeronautical research and technology, and space research and technology 
programs. This capability contributes not only to the State's economic 
viability but to the Nation as a whole.

                          PRIVATE CORPORATIONS

    Question. As I mentioned previously, it is critical for NASA to 
attract private sector dollars to the space field. I know that private 
corporations working in conjunction with the Inland Northwest Space 
Alliance in Missoula, Montana, have made a huge financial investment in 
expandable space structures, a technology that NASA did some work on 
under the auspices of the Transhab project. What is NASA doing to 
leverage these corporations funding of this new technology and to 
encourage other entrepreneurs to make similar investments?
    Answer. Two fundamental goals of the Vision for Space Exploration 
are to: develop the innovative technologies, knowledge, and 
infrastructures both to explore and to support decisions about the 
destinations for human exploration; and promote international and 
commercial participation in exploration to further U.S. scientific, 
security, and economic interests.
    To achieve these goals, NASA is undertaking two new approaches to 
systems and technology development: Broad Agency Announcements (BAAs), 
and a competitive prize program called Centennial Challenges. In 
addition, NASA's existing Innovative Technology Transfer Partnerships 
and Enterprise Engine programs will work to build relationships with 
private industry and NASA will ensure that open, competitive processes 
are used throughout our Human and Robotic Technology (HRT) development 
programs.
    To solicit private sector inputs on how to best frame future 
systems development and procurement decisions, NASA's Office of 
Exploration Systems is employing Broad Agency Announcements (BAAs). 
BAAs have been previously used by the Department of Defense to obtain a 
wide range of company, government lab, and university views on what 
systems, technologies, and expertise are needed to achieve a particular 
operational capability. This will be the first time that NASA has 
employed BAAs, and it should allow companies, both large and small, the 
opportunity to put forth innovative ideas that could have a profound 
impact on how NASA and the Nation implement future exploration 
activities, such as Project Constellation (the Crew Exploration 
Vehicle).
    To ensure that NASA reaches the broadest segment of innovators 
possible, NASA's Office of Exploration Systems has also started a new 
program of prize competitions called Centennial Challenges. Instead of 
soliciting proposals for a grant or contract award, NASA will set a 
challenge, the prize amount to be awarded for achieving that challenge, 
and a set of rules by which teams will compete for that prize. By 
specifying technical goals but not pre-selecting the best way to 
achieve them, NASA intends to stimulate innovation in ways that 
standard Federal procurements cannot. Centennial Challenge winners will 
be judged and earn awards based on actual achievements, not proposals. 
Using this approach, NASA's research will be enriched by new innovators 
that do not normally work on NASA issues. Through Centennial 
Challenges, NASA intends to reach new innovators and find novel or low-
cost solutions to NASA engineering problems that would not be developed 
otherwise.
    NASA's Office of Exploration Systems has inherited NASA's ongoing 
Innovative Technology Transfer Partnerships (ITTP) program. In recent 
years, the focus of the ITTP programs has been rebalanced to include 
both ``spin-off'' (transferring NASA-developed technologies to the 
private sector) as well as ``spin-in'' (leveraging private sector 
technologies for NASA missions). Through ITTP, NASA also plans to 
undertake novel new joint research and development projects with the 
private sector.
    In addition to the programs within the Office of Exploration 
Systems, the Office of Biological and Physical Research Space Product 
Development division (SPD) manages the Research Partnership Center 
(RPC) program. This program brings industry, academia and government 
together to create new technology having application to both NASA and 
the private sector. In this way the RPCs are creating benefits to the 
public through their research directed toward NASA's needs. These 
centers are engaged in a wide range of areas of applied research, 
including advanced materials, agribusiness, biotechnology, 
communications, imaging, medical informatics, telemedicine, spacecraft 
technology and space resource utilization.
    Finally, NASA's Office of Exploration Systems will be making 
significant investments in new technologies to support the development 
of future exploration systems through the Human and Robotic Technology 
(HRT) Program. The Office of Exploration Systems is committed to 
ensuring that HRT programs use open and competitive processes for 
selecting and awarding grants and contracts. This will help ensure a 
level playing field between private sector and public sector R&D 
organizations seeking HRT awards.

                      INTERNATIONAL SPACE STATION

    Question. After the International Space Station is ``phased out'' 
in 2016, what do you plan to do with the facility? Could the private 
sector potentially have a role in managing the Station?
    Answer. In the broad context of the Vision for Space Exploration, 
the ISS will be utilized through at least 2016. It will serve as a 
significant test bed for the research and technical development needed 
to fulfill the objectives of the Vision. It is premature to comment on 
any determination regarding what will happen to the ISS beyond 2016. 
While there are no specific plans for private management of the 
Station, such a proposal would have to be thoroughly evaluated at the 
appropriate time in the future. Future management of the ISS will need 
to be fully coordinated with our International Partners in accordance 
with our ISS agreements.
    There is a plan for the safe and orderly de-orbit of the Station 
when it has reached the end of its service life.

                     CREW EXPLORATION VEHICLE (CEV)

    Question. Currently, the only avenue for the private sector to 
purchase a crewed spaceflight opportunity is aboard the Russian Soyuz. 
Is NASA anticipating the development of a version of its Crew 
Exploration Vehicle that could some day carry non-NASA personnel?
    Answer. The CEV is expected to be dedicated to executing the new 
Vision for Space Exploration. It is doubtful that NASA would itself 
develop a version of the CEV to carry paying customers, since entering 
the commercial market is not an appropriate role for government. 
However, NASA will consider following the model from its aeronautical 
history, whereby the technologies developed for the CEV could be made 
available to commercial interests that could then develop a vehicle to 
meet market driven requirements.
                                 ______
                                 
               Questions Submitted by Senator Larry Craig

                             SPACE NUCLEAR

    Question. I am excited that the space nuclear mission for the 
production of the ``RTG''--the plutonium generators that power many 
space probes--has now been successfully transferred to Idaho--and 
production of these nuclear generators is now taking place at Argonne 
West.
    I think this work is a success. I understand that the Department of 
Energy and NASA are both happy with this work in Idaho. I hope to build 
on this mission.
    I notice that the budget request includes $438 million for Project 
Prometheus and for furthering NASA's efforts in advanced nuclear 
propulsion systems--to move beyond the RTG to actual nuclear fission 
reactors in space.
    With your Navy background, you know that the Naval Nuclear 
Propulsion program safely travels throughout the oceans and all around 
the globe--powered by nuclear reactors. This program provides a good 
analogy for the potential of nuclear in space--the ability to travel 
great distances and a long time between re-fueling. In fact, Navy 
reactor cores now last the ``life of the ship''.
    One of the reasons this is possible is because Naval Reactors has a 
large operation in Idaho--located on the Idaho National Engineering and 
Environmental Laboratory. Every element of Navy fuel, discharged from 
its ships, is sent to Idaho for destructive examination and testing. 
The Navy has developed all its fuel, based on testing done in Idaho's 
Advanced Test Reactor.
    DOE seeks to establish a nuclear energy center of excellence for 
civilian nuclear power in Idaho. I think NASA's space nuclear efforts 
and those of the Navy fit well into this center.
    Given the importance of advanced nuclear propulsion to achieving 
the new vision for U.S. space exploration laid out by the President, 
could I have your commitment to come to Idaho--to see the capabilities 
of the Idaho lab and to see the Naval Reactors work there?
    Answer. NASA has been in touch with your staff regarding this 
matter.

                       ADVANCED MICROELECTRONICS

    Question. In fiscal year 2004, Congress provided $1 million of 
additional funding for advanced work in radiation hardened, ultra low 
power micro-electronics work associated with a research center in Post 
Falls, Idaho. This additional funding was intended as an increase to 
some ongoing work that NASA Goddard was doing in Idaho--not as a 
substitute for that work--which had already been competitively awarded. 
In other words, these items were not meant to cancel each other out. I 
understand that NASA is still engaged of a review of Congressional 
earmarks and will finish that review by the end of the month.
    Could you please look into the status of release of this funding, 
and have your staff report back to my office?
    Answer. NASA has been in touch with your staff regarding this 
matter.
                                 ______
                                 
                Question Submitted by Senator Harry Reid

                    JOINT DARK ENERGY MISSION (JDEM)

    Question. I was recently pleased to learn that NASA and the 
Department of Energy are collaborating on the Joint Dark Energy Mission 
(JDEM) in an attempt to answer the most fundamental science questions 
of the day--of what is the universe made and why is the universe 
expanding at an ever increasing rate. Unfortunately, although the 
Department of Energy requested around $7.6 million in its budget 
request for JDEM, it appears that NASA failed to meet its commitment to 
this program and did not include funding in its fiscal year 2005 budget 
submittal. What does this lack of resources mean for the program and 
for the collaboration that NASA entered into with DOE? There is wide 
agreement within the scientific community that this program is critical 
and in need of immediate funding to ensure that it remains robust and 
productive--could you please explain why NASA chose not to include JDEM 
in its budget request? Please keep the committee abreast of the 
Department's actions and intentions regarding JDEM.
    Answer. NASA has not abandoned its desire to participate in the 
NASA-DOE mission called JDEM. NASA and DOE have agreed on an outline of 
the joint mission. The principle investigator-led science investigation 
will be competitively selected jointly by NASA and DOE. The science 
investigation and mission operations will be jointly funded. NASA will 
take responsibility for the project, prime contractor, launch, general 
observer program, and data archive.
    DOE is funding research that is applicable to JDEM. NASA is funding 
mission concept studies by potential proposers ($500K/yr in fiscal year 
2004 and fiscal year 2005). NASA Centers are spending advanced project 
funds on studies as well ($800K to $1M in fiscal year 2004). NASA is 
evaluating five mission concepts (from Lawrence Berkeley Laboratory; 
JPL; GSFC; Arizona State University; and Conceptual Analytics, LLC) 
looking at a variety of architectures, instruments, and technologies.
    NASA finds the JDEM mission scientifically compelling; however, as 
an agency, we must always prioritize among competing research programs. 
Whenever possible, we enlist the aid of our advisory committees and the 
guidance of the National Research Council (as outlined the most recent 
Decadal Survey). This approach ensures that the opinions of the 
scientific community remain important considerations in NASA decisions.
    While it is true that NASA will not begin full JDEM development 
this year, important precursor activities are being undertaken to 
ensure that we will be prepared to begin, should the decision be made 
to proceed with JDEM.

                          SUBCOMMITTEE RECESS

    Senator Bond. Thank you very much, Mr. Administrator.
    Mr. O'Keefe. Thank you, sir.
    Senator Bond. The meeting is recessed.
    [Whereupon at 11:42 a.m., Thursday, March 11, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
